OIG Semiannual Report to Congress
April 1, 2007 – September 30, 2007




                                        Social Security Administration
                                        Office of the Inspector General
Report Fraud, Waste, and Abuse
1-800-269-0271
                                     Semiannual Report to Congress
                                         April 1, 2007 – September 30, 2007
                                                                       How to Report Fraud
                                                         The SSA OIG Fraud Hotline offers a means for you to provide
                                                         information on suspected fraud, waste, and abuse. If you know
                                                         of current or potentially illegal or improper activities involving
                                                          SSA programs or personnel, we encourage you to contact the
                                                                            SSA OIG Fraud Hotline.

    Social Security Administration
                                                                    Call	 1-800-269-0271
    Office Of The Inspector General                               Write	   Social Security Administration
                                                         	                 Office of the Inspector General
                                                         	                 Attention: SSA Fraud Hotline
                    Mission Statement                    	                 P. O. Box 17768
By conducting independent and objective audits,          	                 Baltimore, MD 21235
evaluations and investigations, we inspire public
confidence in the integrity and security of SSA’s                   Fax	 410-597-0118
programs and operations and protect them against
fraud, waste and abuse. We provide timely, useful and           Internet www.socialsecurity.gov/oig
reliable information and advice to Administration
officials, Congress and the public.
                                                         To obtain additional copies of this report please visit our web-
                                                                       site at www.socialsecurity.gov/oig
                    Vision and Values
We strive for continual improvement in SSA’s programs,
operations and management by proactively seeking                              SSA Pub. No. 85-007
new ways to prevent and deter fraud, waste and abuse.
We commit to integrity and excellence by supporting
an environment that provides a valuable public service
while encouraging employee development and retention
and fostering diversity and innovation.
                                                                      Semiannual Report to Congress




    A Message from the Inspector General

   The seemingly straightforward mission of the Office of the
   Inspector General for the Social Security Administration is
   to prevent and detect fraud, waste, abuse, and mismanagement
   in Social Security programs and operations. This has been a
   constant since this Office was formed in 1995, and will remain
   so for the foreseeable future. Despite this, two realities never
   cease to amaze me: how the nuanced character and composition
   of that mission change from day to day and year to year, and
   the willingness and proficiency with which our auditors, agents,
   attorneys, and other employees adapt to those changes.
   From benefit fraud to Social Security number misuse, from
   homeland security to data security, and from misreported
   earnings to disability program improvement, the landscape is
   ever-changing. This makes our work both extremely challenging and consistently rewarding. On any
   given day, our employees arrive at any one of our 75 offices across the country not knowing what
   new issues will arise during the course of their workday. Some days, the change in course is subtle,
   while some days, issues like terrorism and hurricane relief arrive unexpectedly and subsume all.
   Regardless of the challenges they face, the men and women of the Office of the Inspector General
   are a talented and dedicated group of professionals. Proud of their work and believing deeply in
   their mission, they bring diverse skills but the same unyielding commitment to the table every day.
   I am honored to have the opportunity to lead—and, in some respects, be led by—each of them.
   This report chronicles their impressive accomplishments over the past 6 months. As you read, I
   encourage you to take note of the sheer breadth of issues and challenges that they face and the
   ingenuity and dedication they bring to bear. With steadfast support from our partners in SSA and
   the Congress, this Office will continue to rise to current challenges and anticipate those waiting
   just around the bend.

   S
   Patrick P. O’Carroll, Jr.
   Inspector General




April 1 – September 30, 2007                                                                              
    Semiannual Report to Congress




                                   April 1 – September 30, 2007
                                                                                       Semiannual Report to Congress




           Semiannual Report to Congress


          Contents
              A Message from the Inspector General......................... 1
              Executive Summary................................................................5
              Introduction to Our Organization............................... 6
              Impact..........................................................................................8
              Value.......................................................................................... 21
              People........................................................................................ 31
              Reporting Requirements and Appendices....................37
              Glossary of Acronyms . ......................................................56




April 1 – September 30, 2007                                                                                           
         Semiannual Report to Congress




  •  Executive Summary                  April 1 – September 30, 2007
                                                                     Semiannual Report to Congress




 Executive                                         wide variety of challenges facing the Agency.
                                                   Our audit work over the past 6 months
 Summary                                           includes a review of the organizational
                                                   structure and functions of SSA’s Office of
 With this report, the Social Security             Disability and Income Security Programs, in
 Administration (SSA), Office of the               response to a request by the Commissioner
 Inspector General (OIG) proudly                   of Social Security. In addition, in an
 presents its accomplishments from                 ongoing effort to improve the integrity
 April 1 – September 30, 2007. The sections        of the Social Security number (SSN),
 of this report correspond to the three major      our auditors evaluated the effectiveness
 goals—impact, value, and people—set               of the programs that allow employers to
 forth in the OIG Strategic Plan: Fiscal           verify the names and SSNs of existing and
 Years 2006 – 2010. Highlights of our              newly hired employees, and reviewed the
 many noteworthy achievements in audit,            various purposes for which State and local
 investigations, and legal counsel appear in       governments collect and use SSNs.
 each of these categories as follows:
                                                   Value
 Impact
                                                   Our organization strives to provide valuable
 We work to have a positive impact on SSA          products and services in a timely manner
 programs and operations by enhancing              to the Congress, SSA and other key
 their integrity, efficiency, and effectiveness.   decision-makers while sustaining a positive
 Toward this goal, we received 56,221              return for each tax dollar invested in OIG
 fraud allegations from SSA employees,             activities. During this reporting period, our
 the Congress, the public, law enforcement         auditors identified more than $794 million
 agencies, and other sources during the            in questioned costs and nearly $319 million
 second half of Fiscal Year (FY) 2007. From        in Federal funds that could be put to better
 those allegations, we closed 5,734 criminal       use. Highlighted audits include a review
 investigations, resulting in 1,420 arrests, 955   of improper payments resulting from the
 indictments, and 1,833 convictions, civil         Annual Earnings Test, and an assessment
 monetary penalty (CMP) assessments, and           of the financial impact of the Agency’s
 illegal alien apprehensions. Our Cooperative      administrative finality rules on Title II
 Disability Investigative (CDI) Program            benefit payments.
 continues to be one of our most successful
 initiatives, contributing to the integrity        In the second half of FY 2007, we are
 of SSA’s disability programs. During this         reporting over $201 million in investigative
 reporting period, the efforts of our CDI          accomplishments, with over $36 million
 Units resulted in more than $105 million          in SSA recoveries, restitution, fines,
 in SSA program savings.                           settlements, and judgments, and over
                                                   $165 million in projected savings from
 Our auditors also had a significant impact        investigations resulting in the suspension
 during this reporting period, issuing 64          or termination of benefits. In addition, we
 reports and making recommendations on a           participated in multi-agency investigations


April 1 – September 30, 2007                                                        Executive Summary  •  
         Semiannual Report to Congress




             that resulted in over $15 million in savings,     and 10 convictions of individuals for
             restitution, and recoveries for other agencies.   hurricane-related fraud.
             Highlighted investigations in this section
                                                               As is reflected in our significant
             revealed evidence of disability program
                                                               accomplishments during this reporting
             fraud, representative payee fraud, and SSN
                                                               period, we never waver in our dedication
             misuse.
                                                               to our core mission of inspiring public
             During this reporting period, our attorneys       confidence by detecting and preventing
             initiated 215 CMP actions (Section 1129           fraud, waste, and abuse in SSA’s programs
             cases) that involved false statements or          and operations. We will continue to work
             representations made in connection with           with our partners in SSA, the Congress,
             obtaining or retaining benefits or payments       and other Federal agencies to ensure the
             under Titles II and XVI of the Social Security    integrity and reliability of the Social Security
             Act (the Act). Included in our investigative      programs upon which so many Americans
             accomplishments above is over $3 million in       depend for their economic security.
             penalties and assessments that our attorneys
             imposed through our CMP program.

             People
                                                               Introduction to
             We strive to promote a skilled, motivated,
                                                               Our Organization
             diverse workforce in a positive and               The SSA OIG comprises the Immediate
             rewarding work environment. During this           Office of the Inspector General and four
             reporting period, we hired 23 employees           major components: the Offices of Audit,
             through a variety of sources. In addition,        Investigations, Resource Management,
             a review of our current workforce, coupled        and the Chief Counsel to the Inspector
             with the realization that OIG will have           General.
             a large number of employees eligible to           Immediate Office of the Inspector
             retire within the next 5 years, compelled         General (IO)
             us to form a workgroup to address this
             issue. The workgroup is developing a              IO provides the Inspector General with
             succession-planning program with the goal         staff assistance on the full range of his
             of producing highly qualified candidates for      responsibilities. IO staff provides liaison
             future leadership vacancies.                      with all agencies sharing common interests
                                                               with OIG and ensures coordination with
             We continued to target those who misused          Congressional committees, SSA, the Social
             SSNs in an attempt to defraud the Federal         Security Advisory Board, and the President’s
             Government’s assistance programs in               Council on Integrity and Efficiency.
             the wake of the devastation wrought by            IO also includes the Office of Quality
             Hurricanes Katrina and Rita. As part              Assurance and Professional Responsibility
             of the Department of Justice’s (DOJ)              (OQAPR), which is responsible for two
             Hurricane Katrina Fraud Task Force,               critical functions. It conducts exhaustive
             during this reporting period, our Office of       reviews of each of the OIG’s component
             Investigations has secured 4 indictments


  •  Executive Summary                                                        April 1 – September 30, 2007
                                                                    Semiannual Report to Congress




offices to ensure compliance with Federal       Office of the Chief Counsel to the
laws and regulations, Agency policies,          Inspector General (OCCIG)
and relevant professional standards.
                                                OCCIG provides independent legal advice
OQAPR also conducts thorough and
timely investigations should allegations        and counsel to the Inspector General
of misconduct be lodged against an OIG          on a wide range of issues, including
employee.                                       statutes, regulations, legislation, and
                                                policy directives. OCCIG administers the
Office of Audit (OA)                            CMP program, and advises the Inspector
OA conducts and supervises financial and        General on investigative procedures and
performance audits of SSA programs and          techniques, as well as on legal implications
operations, and makes recommendations           and conclusions to be drawn from audit and
to ensure that program objectives are           investigative material. In addition, OCCIG
achieved effectively and efficiently.           manages OIG’s external and public affairs
Financial audits determine whether SSA’s        program, preparing OIG publications and
financial statements fairly present SSA’s       handling Congressional, media, and public
financial position, results of operations,      requests for information.
and cash flow. Performance audits review        Office of Resource Management
the economy, efficiency, and effectiveness of   (ORM)
SSA’s programs and operations. OA also
conducts short-term management and              ORM provides administrative and
program evaluations, and other projects         management support to the Inspector
on issues of concern to SSA, the Congress,      General and OIG components. ORM
and the general public.                         formulates and executes the OIG
                                                budget and confers with the Office
Office of Investigations (OI)                   of the Commissioner, the Office of
OI conducts and coordinates investigative       Management and Budget (OMB) and
activity related to fraud, waste, abuse, and    the Congress on budget matters. ORM
mismanagement in SSA programs and               is responsible for strategic planning and
operations. This includes wrongdoing by         performance reporting, and facility and
applicants, beneficiaries, contractors, and     property management. ORM develops
third parties, as well as by SSA employees      and maintains OIG’s administrative and
while performing their official duties. This    management policy and procedures, and
office serves as OIG’s liaison to the DOJ       performs all human resource support
on all matters relating to the investigation    activities for OIG. ORM also plans,
of SSA programs and personnel. OI also          designs, develops, tests, implements,
conducts joint investigations with other        and maintains hardware, software, and
Federal, State, and local law enforcement       telecommunications networks to support
agencies.                                       OIG’s mission.




April 1 – September 30, 2007                                       Introduction to Our Organization  •    
         Semiannual Report to Congress




                Impact                                        of Homeland Security (DHS) initiative
                                                              called E-Verify (formerly the Employment
                We are committed to enhancing SSA’s           Eligibility Verification System/Basic
                effectiveness and efficiency through our      Pilot), which assists employers in verifying
                investigative, audit, and legal activities.   the employment eligibility of newly hired
                Through our best efforts, we strive to have   employees. In this audit, we assessed controls
                maximum impact on SSA’s programs              over each employee verification program and
                and operations to ensure their continued      identified best practices.
                integrity and reliability.
                                                              We found that SSA’s SSNVS had adequate
                During this reporting period, we completed    access controls. However, we found that SSA
                numerous audits, investigations, and legal    needed to establish more effective controls
                initiatives covering major SSA program and    over access to its EVS programs, and that
                management areas, which had a significant     DHS needed to establish more effective
                impact on the detection and prevention of     such controls over E-Verify. In addition,
                fraud, waste, and abuse. The summaries        we determined that feedback responses
                presented below are indicative of our work    provided to employers were inconsistent
                over the past 6 months.                       among the verification programs. Finally, we
                                                              found that both EVS programs and DHS’
                Audit Impact Initiatives                      E-Verify lacked effective controls related to
                                                              monitoring employers’ use of the programs.
                OA contributes to this strategic goal by      Due to the vulnerabilities and inconsistencies
                conducting and supervising comprehensive      we found among these programs, SSA’s
                financial and performance audits, and by      data could be susceptible to unauthorized
                making recommendations to maximize            access as well as inadvertent disclosure of
                the effective operations of Social Security   personally identifiable information (PII) to
                programs. These audits, along with short-     unauthorized users.
                term management and program evaluations,
                                                              SSA agreed with most of our
                focus on those SSA programs and activities
                                                              recommendations, including that SSA (1)
                most vulnerable to fraud and abuse.
                                                              consider combining the EVS telephone/
                SSN Protection: Controls over                 fax and EVS for Registered Users under
                Employee Verification Programs                SSNVS and (2) ensure that feedback
                                                              responses provided to employers for the
                To assist employers with accurate wage        four verification programs are consistent.
                reporting, SSA has several voluntary          SSA disagreed with our recommendation to
                services that allow employers to verify       consider modifying all verification programs
                the names and SSNs of existing and            to detect SSNs for individuals in non-work
                newly-hired employees. These include          status. The Agency stated that it believed that
                the Employee Verification Service (EVS)       work authorization was DHS’ responsibility
                Telephone/Fax, EVS for Registered Users,      and should be handled through DHS’ E-
                and SSN Verification Service (SSNVS). In      Verify process.
                addition, SSA participates in a Department



   •  Impact                                                                April 1 – September 30, 2007
                                                                 Semiannual Report to Congress




SSA Operations: SSA’s Incident                  SSA Operations: Organizational
Response and Reporting System                   Review of the Office of Disability and
                                                Income Security Programs
The Federal Information Security Management
Act of 2002 requires that Federal agencies      In March 2007, the Commissioner of Social
implement an information security program       Security requested that we review the
that includes procedures for detecting,         organizational structure and functions of
reporting, and responding to security           the Office of Disability and Income Security
incidents. OMB recently released guidance       Programs (ODISP). ODISP directs and
regarding the reporting of security incidents   manages the planning, development,
involving PII, as well as reminding Federal     and issuance of operational regulations,
agencies of existing requirements. OMB also     standards, and instructions for the OASDI
explained new requirements for addressing       and SSI programs.
PII issues in FY 2008 information technology
                                                We interviewed 112 ODISP employees, as
budget submissions. We conducted an
                                                well as a number of employees in other SSA
audit to determine whether SSA complied
                                                components, and reviewed documentation
with Federal regulations and established
                                                related to ODISP’s organizational structure
standards and guidelines with respect to
                                                and functions. We found that ODISP was
security incidents involving PII.
                                                not focused solely on planning and program
We found that SSA established a framework       policy issues, but was also responsible for
for its incident response and reporting         several operational functions. We found
system. Various components within SSA           that some ODISP functions may be better
work together to protect PII and effectively    aligned to improve coordination and
remediate incidents when they occur.            productivity, while other functions appear
Moreover, the Agency works diligently to        to be inconsistent with ODISP’s mission
protect itself against the latest security-     and may be managed better elsewhere
related threats. However, SSA needs to          in SSA. In addition, our interviews with
ensure that it appropriately addresses all      ODISP’s employees and several of ODISP’s
security incidents, and that OIG is included    customers revealed a consistent theme of
in the incident response process.               poor communication within ODISP and
                                                with other SSA components.
SSA agreed with our eight recommendations,
including that SSA ensure a consistent          SSA may be better served from a functional
definition of a security incident throughout    point of view if ODISP’s main focus were
the Agency; align PII policy and practices      program policy. The Agency generally agreed
with the United States Computer Emergency       with our recommendations to:
Readiness Team; and notify OIG of all           • re-direct ODISP’s focus to program
security incidents when they occur, so OIG        policy;
can determine whether further investigation
is required.                                    • align similar/related functions within
                                                  ODISP;




April 1 – September 30, 2007                                                                   Impact  •  
          Semiannual Report to Congress




                 • delineate more clearly the role of ODISP        We also found that about one-third of
                   with respect to other components;               the Title II-only claims we reviewed were
                                                                   processed early in the statutory 5-month
                 • improve communications within ODISP             waiting period. We recommended that
                   and with other components; and,                 SSA consider refining the QDD selection
                 • consider renaming ODISP and SSA’s               process in the future, prior to rolling it out
                   Office of Policy to clarify the roles of each   to another region, to focus on claims at the
                   component, or combining ODISP with              end of or beyond the waiting period.
                   the Office of Policy.
                                                                   SSN Protection: State and Local
                 SSA Operations: Quick Disability                  Governments’ Collection and Use of
                 Determinations                                    SSNs
                 We assessed SSA’s Quick Disability                State and local governments provide benefits
                 Determinations (QDD) process pilot in             and services to millions of individuals each
                 Region I. Claims selected for QDD involve         year. To assist in this process, many State
                 a high potential that (1) the claimant is         and local governments collect and use
                 disabled; (2) evidence can be obtained            SSNs. We reviewed relevant laws, policies,
                 easily and quickly; and (3) the case can          and practices of all 50 States to (1) discern
                 be processed within 20 calendar days of           the purposes for which SSN collection
                 receipt in the Disability Determination           and use is legally mandated; (2) identify
                 Services (DDS). We conducted this review          measures States have taken to limit SSN
                 to determine whether QDD cases were               collection and use; and (3) evaluate State
                 processed within established guidelines,          laws that govern the protection of SSNs
                 and to identify possible improvements to          from improper use and disclosure.
                 the process.                                      Based on our review, we were concerned
                 We found that SSA generally made                  about the collection, use, and protection
                 medical determinations for QDD claims             of SSNs by State and local governments.
                 within established standards. Of the claims       Despite the increasing threat of identity
                 that were medically allowed, SSA made             theft, some government agencies collect
                 79 percent of determinations within the           and use SSNs even when another identifier
                 20-day standard, and exceeded the 20‑day          would suffice. While Federal or State law
                 standard for 16 percent of determinations.        may require that agencies collect SSNs in
                 Five percent of the claims were not medically     some instances, we believe some do so for
                 allowed. In addition, our review identified       convenience. In our opinion, a government
                 16 claimants (2.4 percent) who were               entity should not place more value on
                 medically allowed but were waiting for SSA        convenience than on the security of its
                 to finish non-medical development on their        constituents’ personal information. We also
                 claims. As a result of our review, SSA took       believe individuals who provide their SSNs
                 immediate action to complete these cases,         to government entities have an expectation
                 and based on feedback we provided, the            that these numbers will be protected from
                 Agency is improving its controls over non-        public disclosure.
                 medical development of QDD claims.


10   •  Impact                                                                     April 1 – September 30, 2007
                                                                      Semiannual Report to Congress




We recommended that SSA (1) seek                  the F-1 enumeration process. First, SSA
legislation to limit State and local              personnel did not always understand or
governments’ collection and use of SSNs;          comply with F-1 student enumeration
(2) educate State and local governments           procedures. We also found that some F-1
about the potential risks associated with         students and schools may have manipulated
collecting and improperly disclosing SSNs;        the enumeration process to obtain SSNs
and (3) promote best practices of State           inappropriately. For example, some school
and local governments. SSA agreed with            officials told us that some F-1 students
Recommendations 2 and 3. Although SSA             worked at jobs for a short period of time
disagreed with Recommendation 1, it agreed        (for example, 1 or 2 days) or did not begin
in principle with similar legislation currently   work at all. They believed the students
under consideration. We concur that seeking       obtained offers of employment to qualify
additional or separate legislation would not      for an SSN but had no intention of working
be necessary if such proposed legislation         on campus.
becomes law.
                                                  SSA agreed with our recommendations to:
SSA Operations: Assessment of                     (1) prevent SSN assignment to F-1 students
F-1 Students’ Use of Social Security              when their employment start date is 30 or
Numbers                                           more days from their SSN application date;
                                                  (2) reemphasize F-1 enumeration policies
F-1 visas are issued to foreign students          and procedures to field office personnel; and
who are eligible to work on campus. SSA           (3) coordinate with schools to educate the
will only issue SSNs to F-1 students              university community about these policies
without DHS employment authorization              and procedures.
if they can provide evidence of on-campus
work authorization and verification of            Investigative Impact Initiatives
employment. Because we were concerned
that F-1 students and schools could exploit       OI examines and investigates allegations of
vulnerabilities in the enumeration process to     fraud, waste, abuse, and mismanagement
acquire SSNs improperly, we conducted an          in SSA programs and operations. These
audit to (1) determine whether F-1 students       allegations may involve benefit fraud, SSN
actually worked on campus and (2) assess          misuse, violations by SSA employees, or
schools’ compliance with F-1 enumeration          fraud related to grants and contracts. Our
regulations.                                      investigations often result in criminal or civil
                                                  prosecutions and CMP assessments against
We reviewed the records of 24,504 F-1             offenders. These investigative efforts impact
students and found that 2,479 (10 percent)        SSA program integrity by deterring those
did not have wages posted to their SSA            contemplating fraud against SSA in the
earning records in 2005 or 2006, indicating       future. Our work in the areas of program
that they may not have worked on campus.          fraud, enumeration fraud and SSN misuse,
We also determined that 680 students              and employee misconduct ensures the
worked off campus. In addition, interviews        reliability of SSA programs and their future
we conducted with SSA field office personnel      operations.
and school officials revealed weaknesses in


April 1 – September 30, 2007                                                                         Impact  •  11
          Semiannual Report to Congress




                                           Investigative Results


                                          10/01/06–03/31/07 04/01/07–09/30/07        FY 2007



          Allegations Received                  57,309             56,221             113,530


          Cases Opened                          5,449              6,812              12,261


          Cases Closed                          5,340              5,734              11,074


          Arrests                               1,709              1,420               3,129


          Indictments                            850                955                1,805


          Total Judicial Actions                1,991              1,833               3,824


            Criminal Convictions                1,087              1,333               2,420


            Civil/CMPs                            20                373                 393


            Illegal Alien Apprehensions          884                127                1,011




12   •  Impact                                                     April 1 – September 30, 2007
                                                                     Semiannual Report to Congress




                               Cases Opened by Program Category
                                      10/01/2006 – 9/30/2007


                                                                   Social Security Number
          Employee Related – 1.59%         Other – 6.21%                (SSN) – 9.54%




        Title XVI
    Disability – 36.94%


                                                                                 Title II
                                                                             Disability – 26.43%


                            Title XVI
                            Aged - 2.31%                          Title II
                                                             Retirement – 16.98%




                                     Cases Closed by Program Category
                                           10/01/2006 – 9/30/2007


             Employee Related – 1.73%       Other – 2.92%
                                                                    Social Security Number
                                                                         (SSN) – 11.51%
         Title XVI
      Disability - 39.15%




                                                                                  Title II
                                                                              Disability - 28.57%

                      Title XVI
                     Aged - 2.49%                                Title II
                                                            Retirement – 13.63%




April 1 – September 30, 2007                                                                        Impact  •  13
             Semiannual Report to Congress




                                     Allegations Received by Source

                                       10/01/06 – 3/31/07          4/01/07 – 9/30/07     FY 2007

     Law Enforcement                                  21,234                   20,006          41,240

     Private Citizens                                  8,766                    8,425          17,191

     Anonymous                                         9,075                    9,133          18,208

     SSA Employees                                    13,318                   14,785          28,103

     Other                                             3,459                    2,330           5,789

     Beneficiaries                                       964                      915           1,879

     Public Agencies                                     493                      627           1,120

     TOTAL                                            57,309                  56,221         113,530


                                    Allegations Received by Category

                                        10/01/06 – 3/31/07         4/01/07 – 9/30/07     FY 2007

     SSI Disability                                    20,464                  20,679         41,143

     Disability Insurance                              21,466                  20,250         41,716

     SSN                                                5,587                   6,698         12,285

     Old-Age, Survivors Insurance                       3,159                   4,930           8,089

     Other                                              5,525                   2,466           7,991

     Employee                                                607                 690            1,297

     SSI Aged                                                501                 508            1,009

     TOTAL                                             57,309                 56,221        113,530



14   •  Impact                                                             April 1 – September 30, 2007
                                                                  Semiannual Report to Congress




Employee Fraud: SSA Employee                    Employee Fraud: SSA Employee
Conspires to Defraud Internal Revenue           Conducts Real Estate Business from
Service                                         Government Computer
Agents from our New York City office            Our New York City office opened an
investigated an SSA employee for selling        investigation after the Downtown New
legitimate SSNs for $250 each to a co-          York SSA office reported that an employee
conspirator. The employee and her co-           had improperly accessed Social Security
conspirator, a tax preparer, used the SSNs as   information. Our agents found that the
dependents on other individuals’ tax returns    employee used her Government computer
so they would qualify for tax refunds under     to obtain confidential SSA information for
the Earned Income Tax Credit program.           tenants living in her rental properties, and
                                                also processed replacement Social Security
In May 2007, both suspects pled guilty to       cards without authorization. In addition,
conspiracy to defraud the Government. The       she admitted to misusing her Government
SSA employee was sentenced to 2 years’          computer for the purpose of operating her
supervised release and was ordered to pay       personal real estate business. In May 2007,
restitution of $127,584 to the Internal         she pled guilty to fraud and related activity in
Revenue Service (IRS). The employee             connection to computers, and was sentenced
retired in June 2006. The co-conspirator        to 2 years of probation. She was also ordered
was sentenced to 15 months’ incarceration       to pay a fine of $2,000. SSA terminated the
and 3 years of supervised release, and was      employee in September 2007.
ordered to pay restitution of $80,242 to the
IRS.                                            Bankruptcy Fraud Project: Woman
                                                Uses SSNs to Commit Bankruptcy
Employee Fraud: SSA Employee                    Fraud
Reinstates Benefits for Prison Inmate
                                                Our Denver office conducted this SSN
Our San Antonio office investigated an SSA      misuse investigation as part of our national
employee who reinstated Title II widows         Bankruptcy Fraud project, a cooperative
benefits for an incarcerated individual. The    effort with DOJ’s United States Trustee
employee admitted to accessing the SSA          Program, which is responsible for overseeing
database and entering a fraudulent prison       the administration of bankruptcy cases. We
release date, causing the reinstatement of      received a request for investigative assistance
benefits and issuance of a check for $13,935.   from the Colorado U.S. Attorney’s Office
In May 2007, after pleading guilty to theft     (USAO), which had learned that a 41-year-
of Government funds, the employee was           old Denver resident had misused SSNs to
sentenced to 5 years’ probation and 6 months    obtain credit and housing, and then filed for
of home confinement, and was ordered to         bankruptcy to avoid liability for the debts.
pay full restitution to SSA. SSA terminated     Moreover, the woman and her husband were
the employee in March 2007.                     known to be serial bankruptcy filers, and




April 1 – September 30, 2007                                                                       Impact  •  15
          Semiannual Report to Congress




             a bankruptcy judge had previously barred         Corrections arrested a 46-year-old SSI
             them from filing future bankruptcy claims.       disability applicant at his residence. The
             The woman pled guilty to SSN misuse in           arrest was based on a no-bail felony warrant,
             July 2007, and was sentenced to 24 months’       issued in August 2006 by the Superior Court
             incarceration and 3 years’ probation. She was    for Spokane Washington, charging him with
             also ordered to pay $43,090 in restitution       child rape.
             to various victims. The USAO declined to
             prosecute the woman’s husband in relation        Fugitive Felon Program: Fugitive
             to the SSN misuse.                               Apprehended After Three Years
                                                              Agents from our New York City office,
             Fugitive Felon Program                           working with the New York Regional
                                                              Fugitive Task Force, arrested a 57-year-old
             The OIG’s Fugitive Felon Program identifies
                                                              SSI disability recipient at his apartment in
             fugitive felons and parole and probation
                                                              Brooklyn, New York in August 2007. The
             violators via automated data matches between
                                                              arrest was based on an October 2004 warrant
             SSA’s beneficiary rolls and Federal and
                                                              issued by the New York State Division of
             State warrant databases. The impact of this
                                                              Parole for a narcotics conviction. The suspect
             program reaches beyond Social Security to
                                                              had eluded law enforcement authorities for
             local communities across the United States.
                                                              3 years.
             Our efforts contributed to the arrest of over
             7,500 fugitives during this reporting period,
             over 14,000 in FY 2007, and over 59,000          Cooperative Disability
             arrests since the program’s inception in 1996.   Investigative Program
             The following are highlights of fugitive felon
             activities during the past 6 months.             Our Cooperative Disability Investigative
                                                              (CDI) Program continues to be one of our
             Fugitive Felon Program: Rape Suspect             most successful initiatives, contributing to
             Arrested                                         the integrity of SSA’s disability programs.
                                                              CDI is a joint effort of the OIG, SSA, State
             Agents from our Atlanta office, working with     DDSs, and State and local law enforcement
             the U.S. Marshals Service, arrested a 25-year-   personnel. Our 19 CDI Units in 17 States
             old SSI disability recipient in May 2007. The    work to obtain sufficient evidence to identify
             suspect was arrested without incident at a       and resolve issues of fraud and abuse related
             local SSA office. The arrest was based on        to initial and continuing disability claims.
             an October 2006 warrant obtained by the          The following table highlights the successes
             College Park, Georgia Police Department.         of the CDI program, which resulted in more
             Fugitive Felon Program: Child Rapist             than $105 million in SSA program savings
             Arrested                                         during this reporting period, and more than
                                                              $196 million during FY 2007.
             In July 2007, agents from our Spokane office,
             working with the U.S. Marshals Service,
             the Spokane County Sheriff ’s Office, and
             the Washington State Department of



16   •  Impact                                                               April 1 – September 30, 2007
                                                                                    Semiannual Report to Congress




                           Cooperative Disability Investigative Program Results
                                               April 1 – September 30, 2007

                                             Allegations         Confirmed                                        Non-SSA
                  State                                                                SSA Savings1
                                              Received          Fraud Cases                                       Savings2
Arizona                                                    77                  48             $3,036,662                $955,815
California3                                              471                 383             $22,824,275            $17,325,511
Colorado                                                   62                  47             $3,125,500              $1,262,052
Florida                                                    58                  57             $3,081,466              $3,183,296
Georgia                                                  159                   89             $5,621,816              $1,617,583
Illinois                                                   43                  37             $2,160,628                $988,311
Louisiana                                                  58                  29             $1,833,206                $988,644
Massachusetts                                              69                  24             $1,383,283                $584,700
Missouri                                                   99                  68             $4,219,790              $1,582,450
New Jersey                                                 76                  88             $5,799,900              $4,984,340
New York                                                 113                   81             $5,373,720              $5,544,660
Ohio                                                     222                 192             $12,094,700              $6,511,920
Oregon                                                   175                 149              $9,702,016              $8,610,030
Tennessee                                                  93                  50             $3,232,156              $1,564,134
Texas4                                                   181                 103              $6,423,781              $3,449,189
Virginia                                                   75                  58             $3,656,718              $3,070,519
Washington                                               197                  186             $11,625,380              $9,288,810
Totals (4/1/2007 – 9/30/2007)                          2228                1689           $105,194,997             $71,511,964
Totals (10/1/2006 – 3/31/2007)                         1966                 1417             $91,416,713            $59,154,524
FY 2007 Grand Totals                                   4194                3106           $196,611,710             $130,666,488
   1
    SSA program savings are reported at a flat rate of $66,500 for initial claims that are denied as a result of CDI investigations.
   When a CDI Investigation supports the cessation of an in-pay case, SSA program savings are calculated by multiplying the
   actual monthly benefit times 60 months.
   2
    Non-SSA Savings are also projected over 60 months whenever another governmental program withholds benefits as a result
   of a CDI investigation, using estimated or actual benefit amounts documented by the responsible agency.
   3
    California has two units, one in Los Angeles, and the other in Oakland.
   4
       Texas has two units, one in Dallas, and the other in Houston.

April 1 – September 30, 2007                                                                                        Impact  •  17
          Semiannual Report to Congress




             The following CDI case summaries highlight        since 1998 for post-traumatic stress disorder
             major investigations we conducted during          (PTSD). The man reported that his combat
             this reporting period which enhanced SSA          experience in Vietnam and witnessing a fatal
             program integrity and the reliability of SSA’s    car accident in 1998 had triggered PTSD and
             operations.                                       left him unable to care for himself, drive, or
                                                               socialize with friends. The U.S. Department
             CDI: Man Alleging Blindness Found                 of Veterans Affairs (VA) referred this case
             Working as Butcher                                to the Atlanta CDI unit, alleging that the
             Our St. Louis CDI unit investigated a 30-         man had concealed his employment and
             year-old man who filed initial Title II and       functional abilities in his application for
             Title XVI disability claims due to blindness.     disability benefits.
             The man alleged that he could not see well        The CDI investigation revealed that the man
             enough to drive, fix meals, leave his home        devised an elaborate scheme with his wife to
             unaccompanied, or get his medications out         develop a fraudulent history of military service
             of the bottles. This case was forwarded to our    to support his disability claim. For example,
             CDI unit by the Cape Girardeau, Missouri          our agents determined that he served as a
             DDS for possible malingering and multiple         truck driver in Vietnam for 3 months, and
             inconsistencies regarding the man’s visual        never saw combat. They also determined that
             abilities and functioning.                        he did not witness a fatal car accident in 1998.
             During the CDI investigation, the man was         Moreover, they found that he and his wife ran
             seen driving to multiple locations. In one        a lucrative farming business, which made him
             instance, the man was observed entering           ineligible to receive disability benefits. His
             a grocery store and working as a butcher.         scheme defrauded SSA and VA of $304,772.
             After contacting the grocery store owner, our     A jury found the husband and wife guilty of
             investigators learned that the man was not        theft of Government funds, false statements
             an employee, but helped the other workers a       to SSA, wire fraud, and aiding and abetting.
             few times a week. According to the owner, the     They were sentenced in March 2007 to 37
             man advised he had a worker’s compensation        months in prison and 3 years of supervised
             lawsuit pending in Arkansas for being             release, and were ordered to pay restitution of
             electrocuted while working in the meat            $133,690 to SSA and $171,082 to VA.
             department of a grocery store. The owner          CDI: Waitress Fraudulently Receives
             stated the man is a very skilled butcher and is   Title II and Title XVI Disability
             able to operate equipment such as the slicer,     Benefits for 5 Years
             saw, and grinder. The CDI unit provided this
             information to the DDS, which denied the          Our Tampa CDI unit received an allegation
             disability claims.                                from the Carrollwood, Florida SSA office
                                                               concerning the work activity of a 44-year-old
             CDI: Man and Wife Get Jail Time for               woman who had received Title II and Title
             Fabricating a Military Service-Related            XVI disability benefits since 2002 based
             Disability                                        on PTSD, including depression, inability
             The Atlanta CDI Unit investigated a man           to concentrate, and lapses in memory. The
             who had received Title II disability benefits     investigation revealed that the woman was


18   •  Impact                                                                April 1 – September 30, 2007
                                                                     Semiannual Report to Congress




employed as a waitress and earned over            cellular telephone. The woman’s Title XVI
$1,200 per month.                                 disability payments were terminated. In
                                                  addition, OCCIG subsequently imposed
Members of our Tampa CDI unit observed            a $30,000 CMP against the woman for
the woman working as a waitress taking            making false statements to SSA.
and delivering orders without difficulty,
and interacting well with the customers.
When asked for directions, the woman              Legal Impact Initiatives
gave clear and detailed directions, including     OCCIG improves SSA program integrity
approximate distances and number of traffic       from a different perspective, through its
lights. The woman waited on the tables in         administration of the CMP provisions of
a brisk and efficient manner. In May 2007,        Section 1140 of the Act. Section 1140 of
SSA terminated the woman’s disability             the Act enables OCCIG to impose penalties
benefits and assessed a combined Title II         against individuals or entities that use SSA’s
and Title XVI overpayment of $53,550.             program words, letters, symbols, or emblems
CDI: Woman Concealing Work                        in advertisements or other communications in
Activity Assessed $30,000 CMP                     a manner that falsely implies SSA’s approval,
                                                  endorsement, or authorization. Additionally,
The Baton Rouge CDI unit investigated             Section 1140 prohibits an entity from
a 31-year-old woman who received SSI              charging a fee for a service provided free of
disability payments for back ailments. The        charge by the SSA without including certain
woman alleged she was injured in a car            mandatory language informing the consumer
accident, which made it difficult for her to      that they may deal directly with the Agency.
sit, stand, squat, kneel, climb stairs, use her   An individual or entity that violates this
hands for fine motor skills, or lift her arms     provision is subject to a maximum penalty of
over her head. In addition, she reported          $5,000 for each communication that misleads
the maximum weight she could lift was             recipients or fails to disclose the nature of the
5 to 10 pounds. This case was referred to         service. Our nationwide enforcement efforts
the CDI unit by the Office of the Attorney        serve as a meaningful deterrent in this area
General for the State of Louisiana because        and continue to positively impact SSA’s
the woman filed a lawsuit as a result of the      mission.
car accident. The woman’s auto insurance
company provided CDI investigators with           The following case highlight demonstrates
videotapes of the woman carrying groceries        OCCIG’s commitment to ensuring that
(including two 1-gallon milk jugs at the same     advertisers do not use Social Security
time) and a toddler.                              symbols and terms to mislead the public.

CDI investigators then observed the woman         Private Company Ordered to Stop
working at a department store, where she          Publishing Misleading Directory
stood for long periods of time. Investigators     In Spring 2007, OCCIG received complaints
also observed the woman shopping, bending         from multiple sources concerning a 2007
over the front car seat to secure a child,        SSA Directory that appeared to be either
carrying a toddler, driving, and using a          from SSA or otherwise endorsed or affiliated


April 1 – September 30, 2007                                                                          Impact  •  19
          Semiannual Report to Congress




                 with SSA. The publication contained one         citing OCCIG’s concerns and including a
                 small disclaimer that stated“[t]he appearance   copy of Section 1140. The letter demanded
                 of advertising in this publication does         proof of the company’s intended compliance
                 not constitute endorsement by the Social        with Section 1140 within 30 days. One
                 Security Administration …” However,             week later, the company submitted a letter
                 Section 1140 specifically provides that the     agreeing to immediately cease and desist
                 use of a disclaimer is not an appropriate       producing the directory and pursuing any
                 corrective measure. OCCIG contacted             business matters associated with SSA.
                 SSA’s Office of Publications and Logistics
                 Management, and confirmed that this
                 publication was in no way endorsed by or
                 affiliated with SSA.
                 On April 19, 2007, the Chief Counsel issued
                 a cease-and-desist letter to the California
                 company which published the directory,




20   •  Impact                                                                 April 1 – September 30, 2007
                                                                  Semiannual Report to Congress




Value                                           SSA Operations: Improper Payments
                                                Resulting from the Annual Earnings
All OIG initiatives strive to provide value     Test
to SSA, the Congress, other key decision-
                                                SSA reduces payments to those retirement
makers, and the public by delivering
                                                beneficiaries under full retirement age (FRA)
timely and reliable audit, investigative, and
                                                who earn wages above an established exempt
legal products and services. To achieve
                                                amount. SSA’s annual earnings test (AET)
the intended value, these products and
                                                determines whether beneficiaries have
services must effectively meet the needs of
                                                earnings in excess of the exempt amount,
all whom we serve while maximizing our
                                                and adjusts their benefit amount accordingly.
available resources. To do this, we integrate
                                                To ensure compliance with AET provisions,
best-practice strategies and the newest
                                                SSA also compares beneficiaries’ earnings
technologies to increase our productivity
                                                which are reported by employers and posted
and maximize our return on investment
                                                to the Master Earnings File (MEF) with the
to the public. Taken together, our audits,
                                                earnings reported by beneficiaries, which are
investigations, and legal efforts generated
                                                posted to the Master Beneficiary Record
a positive return during the second half of
                                                (MBR). This process, called the Earnings
FY 2007.
                                                Enforcement Operation (EEO), is designed
                                                to identify beneficiaries who are overpaid.
Value Attained Through
                                                We conducted this audit to determine
Audits                                          whether SSA properly adjusted benefits
The focal point of many of our audits is        to beneficiaries subject to the AET. We
the identification of SSA program and           identified a population of about 200,000
operational areas where funds could be          beneficiaries for Calendar Years (CY) 2002
put to better use. In addition, we have         through 2004 with (1) earnings greater
often isolated situations where we have         than the annual exempt amount, and (2) a
questioned approaches and their costs, and      difference of at least $100 between the wages
have recommended alternatives to yield          on the MBR and those on the MEF.
program and operational savings.
                                                Based on our review, we estimated that
During this reporting period, our auditors      SSA overpaid about $313 million to
issued 64 reports with recommendations          89,300 beneficiaries and underpaid about
identifying over $794 million in questioned     $35 million to 12,800 beneficiaries. These
costs and nearly $319 million in Federal        errors occurred primarily because SSA did
funds that could be put to better use. Some     not process all records identified by the
of our most notable audits are summarized       EEO. In addition, we found that SSA had
below.                                          not processed approximately 1.4 million
                                                records identified by the EEO for CYs 1996
                                                through 2001. Unless corrective action is
                                                taken, we estimate SSA will pay at least $104




April 1 – September 30, 2007                                                                    Value  •  21
         Semiannual Report to Congress




              million in overpayments and $11 million in       $49.8 million in the future because their
              underpayments annually.                          ongoing benefits were not corrected when
                                                               the Agency identified the errors.
              SSA agreed with our recommendations,
              including that SSA review and process            In light of the millions of Trust Fund dollars
              EEO selections pending since 1996, and           that could be saved, we recommended that
              determine whether the EEO should also            SSA consider revising its rules/regulations
              identify potential underpayments based on        to permit changes to ongoing OASDI benefit
              differences in wages posted to the MBR and       payments whenever errors are discovered.
              MEF.                                             SSA disagreed with our recommendation,
                                                               citing significant operational costs and
              Benefit Payment Audit: Administrative            potential beneficiary hardship, and
              Finality in the Old-Age, Survivors and           further stating that administrative finality
              Disability Insurance Program                     fosters public confidence in the Agency’s
              SSA’s rules of administrative finality govern    decisions.
              the reopening and revising of benefit            Benefit Payment Audit: Adjustment
              payment determinations when they are             of Widows Insurance Benefits at Full
              later found to be incorrect. Generally,          Retirement Age
              under administrative finality, SSA will not
              revise an incorrect benefit payment amount       Some individuals are entitled to both
              which resulted in more benefits than were        Social Security disability benefits based on
              due if the error is discovered more than 4       their own earnings history and widows/
              years after the initial determination. We        widowers benefits based on the earnings of
              conducted this audit to assess the financial     their deceased spouse. Widows/widowers
              impact of these administrative finality rules    benefits are reduced when beneficiaries elect
              on the OASDI program.                            to receive them prior to FRA; however, this
                                                               reduction is eliminated when beneficiaries
              From a population of 77,969 OASDI                attain FRA and transition from disability
              individuals receiving benefits as of June        to retirement benefits. We conducted this
              2005, whose benefit records indicated that       review to determine whether SSA properly
              administrative finality was involved, we         adjusts widows/widowers benefits when
              analyzed a random sample of 275 cases.           beneficiaries attain FRA.
              Based on our analysis, we estimated that
              SSA identified about 44,230 beneficiaries        Based on our review of a random sample
              whose benefits had been incorrectly              of cases, we estimate that about 9,751
              calculated, but did not revise the amounts       beneficiaries were underpaid approximately
              because of its administrative finality           $113.7 million through November 2006.
              rules. As a result, we estimated that these      If SSA does not take action to correct
              individuals were paid about $140.5 million       the benefits paid to these individuals, we
              more in OASDI benefits than they would           estimate that they will continue to be
              have been paid had the errors not occurred.      underpaid about $137.8 million over the
              We also estimated that about 25,801 of           rest of their lives. On average, for our sample
              these beneficiaries will be paid an additional


22 •  Value                                                                   April 1 – September 30, 2007
                                                                  Semiannual Report to Congress




cases, 121 months (or 10 years) had elapsed     SSA agreed with our recommendation to
since the beneficiaries attained FRA.           determine whether the SSI recipients we
                                                identified are eligible for OASDI benefits
SSA agreed with our recommendations             and calculate any underpayments. Also, SSA
that the Agency (1) review these cases and      should evaluate ongoing efforts to identify
take any appropriate action; (2) remind         individuals who may be eligible as disabled
staff of proper procedures for adjusting        adult children to determine whether these
widows benefits; and (3) review automated       efforts should be expedited or expanded.
programs used to ensure that these cases
are identified.                                 Nationwide Review of Federal
                                                Employees Who Received
Benefit Payment Audit: SSI Recipients           Compensation for Lost Wages for
Eligible as Disabled Adult Children             Periods When Earned Wages Were
under the OASDI Program                         Reported
We performed this audit to determine            The Federal Employees’ Compensation Act
whether SSI recipients who previously           (FECA) provides for compensation for
received OASDI benefits as child                lost wages and medical benefits to Federal
beneficiaries were eligible for additional      employees who are injured on the job or
benefits. Individuals receiving SSI payments    incur a work-related injury or illness. The
may also be eligible for disabled adult child   FECA program is administered by the U.S.
benefits under the OASDI program if they        Department of Labor (DOL). In this review,
(1) were disabled before reaching age 22; (2)   we determined the number of individuals
are not entitled to a higher OASDI benefit      receiving FECA benefits for whom earned
payment based on their own work history;        wages were also reported on SSA’s Master
and (3) have a parent who is receiving          Earnings File.
benefits or who was insured for benefits at
the time of death.                              Our analysis of records provided by DOL
                                                OIG 1 showed that in CY 2004, 26,057
Based on an analysis of SSA records, we         individuals were classified as not having
identified 5,908 SSI recipients who appeared    a wage earnings capacity or their wage
to be eligible for additional OASDI benefits.   earnings capacity had not been determined.
Of these, we randomly selected 200 for          Of these individuals, we determined that
further review, and found that 137 appeared     1,795 (6.9 percent) earned wages while
to be eligible for additional benefits. Based   receiving FECA compensation. The total
on this review, we estimate that about 4,047    amount of FECA compensation for lost
SSI recipients may be eligible for additional   wages paid to these individuals in CY 2004
OASDI benefits. Of the 137 cases, we            was $48,751,751. The total amount of wages
selected 10 SSI recipients to assess their
respective OASDI and SSI payments. We            This evaluation was conducted for research
                                                 1

determined these 10 recipients were owed        and statistical purposes only. As such, our
OASDI underpayments of approximately            office will not take any action that might affect
$114,000.                                       the rights, benefits, or privileges of specific
                                                individuals identified during the course of the
                                                evaluation.


April 1 – September 30, 2007                                                                        Value  •  23
         Semiannual Report to Congress




              earned was $12,607,480. The wages ranged         Value Attained Through
              from about $100 to $115,502. However,
              we did not review individual case files to       Investigations
              determine whether improper payments                           During this reporting period,
              occurred.                                                     the efforts of our investigators
              Our review shows that the potential exists                    yielded significant results arising
              for a substantial amount of improper                          from the successful prosecution
              FECA payments if Federal agencies do not                      of cases that we developed. Our
              improve program oversight and monitoring.                     investigators achieved over $201
              Unfortunately, because of restrictions of the    million in investigative accomplishments,
              Computer Matching and Privacy Protection Act     with over $36 million in SSA recoveries,
              of 1988, we cannot disclose to the affected      restitution, fines, settlements, and judgments
              agencies the identities of the individuals       and over $165 million in projected savings
              identified by our review. We believe that        from investigations resulting in the
              OIGs should work with their respective           suspension or termination of benefits. The
              agencies to resolve the issues identified in     following table represents the efforts of OI
              this report.                                     personnel nationwide to recover SSA funds
                                                               lost as a result of fraud.




                                               SSA Funds Reported

                                    10/01/06 – 3/31/07        04/01/07 – 09/30/07             FY 2007


              Recoveries                      $21,845,480               $22,236,296           $44,081,776


              Fines                               $784,847                $2,312,264           $3,097,111

              Settlements/
                                                  $522,088                  $211,224              $733,312
              Judgments

              Restitution                     $15,115,742               $11,319,884           $26,435,626


              Estimated Savings              $140,814,075              $165,325,820          $306,139,895


              Total                         $179,082,232              $201,405,488         $380,487,720




24 •  Value                                                                   April 1 – September 30, 2007
                                                                   Semiannual Report to Congress




The following case summaries are indicative       2007 to 72 months in prison and 36 months
of the more than 5,734 investigations that        of supervised release. He was ordered to pay
we closed during this reporting period.           restitution of more than $16 million jointly
The cases we have highlighted illustrate          and severally with his co-conspirators to
the many instances where our investigative        EDD.
efforts have resulted in a significant return
on investment.                                    SSN Misuse: Four Colorado Residents
                                                  Use Fake SSNs to Obtain Medical
SSN Misuse: California Residents                  Services
Perpetrate $58 Million Unemployment
                                                  A joint investigation was conducted by our
Insurance Fraud
                                                  Denver office and the Aurora, Colorado Police
Our San Francisco office conducted a joint        Department. The investigation revealed that
investigation with the U.S. Department of         four individuals misused SSNs to obtain
Labor, the California Employee Development        medical services at an Aurora hospital. One
Department (EDD), the United States Postal        of the individuals pled guilty to providing
Inspection Service, Immigration and Customs       false information to obtain hospital care,
Enforcement, and the California Highway           and was sentenced in April 2007 to 6 months
Patrol. The investigation revealed that five      in prison. The second pled guilty to second
different groups of individuals were using        degree forgery, and was sentenced in May
a similar scheme involving SSN misuse to          2007 to 630 days in prison. The third person
defraud the California EDD’s unemployment         pled guilty to identity theft and was sentenced
insurance program. The individuals stole          in July 2007 to 4 years’ probation and 100
payroll information belonging to employees,       hours of public service, and the fourth pled
and then filed unemployment insurance claims      guilty to providing false information and was
using that information, directing payments        sentenced to 30 days in prison.
to different addresses they had established.
The investigation also revealed that the          Representative Payee Fraud: Law Firm
owner of a small market had knowingly             Conspires to Defraud SSA Beneficiaries
cashed fraudulently obtained unemployment         We conducted this investigation in
insurance checks for nine of these individuals.   coordination with the U. S. Attorney’s Office
These schemes resulted in a loss of more than     for the Western District of Michigan, the
$58 million to the California EDD.                Federal Bureau of Investigation, the Eaton,
Nine individuals pled guilty to conspiracy,       Michigan County Prosecutor’s Office, the
mail fraud, identity theft, and conspiracy to     Eaton County Sheriff ’s Department, the
launder money, and were sentenced to prison       Michigan State Police, and the Charlotte,
sentences ranging from 30 to 126 months and       Michigan Police Department. Our Detroit
probation ranging from 36 to 60 months. They      office investigated an attorney and his office
were also ordered to pay varying amounts of       manager for misuse of clients’ funds. The
restitution jointly and severally to the EDD.     attorney was the guardian, conservator, and,
The market owner pled guilty to conspiracy        in some cases, SSA-appointed representative
to launder money and was sentenced in June        payee for approximately 167 clients. Our
                                                  investigation revealed that the attorney and


April 1 – September 30, 2007                                                                    Value  •  25
         Semiannual Report to Congress




              his office manager were responsible for the        sentences to run concurrently. In addition, she
              theft of approximately $1.65 million dollars       was ordered to pay restitution of $150,000 to
              from 98 individuals over a 5-year period.          the victim’s estate or heirs. A supplemental
              About $154,000 of the $1.65 million dollars        order concerning the amount of restitution
              represented SSA benefits, and the remainder        owed to SSA and the Department of Human
              of the loss was the victims’ life savings. The     Services is pending.
              suspects used the money to operate the law
              office and to pay gambling debts and other         Representative Payee Fraud: Former
              personal expenditures.                             Girlfriend Conceals Boyfriend’s
                                                                 Disability Award
              In May 2007, after the attorney and office
              manager pled guilty to conspiracy to commit        Our Baltimore office received a request for
              mail fraud and conspiracy to commit Social         assistance from the Montgomery County,
              Security fraud, the attorney was sentenced         Maryland Police Department regarding a case
              to 60 months of incarceration and 3 years’         of possible identity theft and misappropriation
              supervised release. The office manager was         of SSA funds. Our investigation revealed
              sentenced to 54 months’ incarceration and 3        that when a man applied for Title II
              years’ supervised release. Both the attorney       disability benefits, his SSA records showed
              and the office manager were ordered to jointly     he was already receiving those benefits. We
              pay $1,656,409 in restitution to the 98 victims    determined that in 1997, the man’s former
              (87 of the victims were SSA beneficiaries and      girlfriend had applied for, and was awarded
              monies owed them totaled $154,552).                Title II disability benefits using his personal
                                                                 information but without his knowledge.
              Representative Payee Fraud: Mother                 Moreover, SSA had appointed her as his
              Convicted of Murder                                representative payee. From December
                                                                 1997 through September 2005, the former
              Our Des Moines, Iowa office received a             girlfriend fraudulently received $73,156, and
              referral from the Johnstown, Iowa Police           had also used the man’s personal information
              Department regarding a murder investigation        to purchase automobiles.
              involving the representative payee for a 3-year-
              old SSI recipient. According to the police, the    She pled guilty to theft and was sentenced in
              girl’s mother, who was also her representative     August 2007 to 5 years in prison (with 4 years
              payee, starved the child and failed to provide     suspended) and 3 years of probation. She was
              the child with necessary medical treatments.       also ordered to pay restitution of $73,156 to
              The child died in March 2006. Based on the         SSA.
              investigative findings, SSA determined that
              from September 2002 through March 2006,            Disability Program Fraud: SSA
              the mother misused $23,269 of her daughter’s       Beneficiary Found Working as Vice-
              SSI payments.                                      President of Restaurant Chain Earning
                                                                 Over $900,000
              After pleading guilty, the woman was
              sentenced in August 2007 to 15 years in            Our New York City office conducted this
              prison for 2nd-degree murder and 10 years in       investigation based upon a referral from a
              prison for neglect of a dependent person, both     major insurance company. Our investigation
                                                                 revealed that a Title II disability beneficiary


26 •  Value                                                                      April 1 – September 30, 2007
                                                                    Semiannual Report to Congress




claimed he was unable to work due to a heart      Disability Program Fraud: Custodian
condition in order to receive payments from       Fraudulently Collects Over $97,000
SSA and various insurance companies. From         From SSA
June 2000 through April 2006, the man was
employed as the vice-president of a company       Agents in our Chicago office investigated a
that owns and operates restaurants and            Title II disability beneficiary who received
banquet facilities worldwide, and received        benefits for himself and his dependents
yearly wages in excess of $900,000. In            and who failed to report his work activity
addition, he supervised multi-million dollar      to SSA. Our investigation determined
construction projects and managed several         that from June 2001 through June 2005,
restaurants in the New York City area.            the man was employed as a custodian for
                                                  a condominium homeowners’ association.
In July 2007, the man pled guilty to              The man used a fictitious name and a
insurance fraud and was sentenced to 1½           different SSN to conceal his employment.
to 4½ years’ incarceration. He was ordered        In June 2007, after pleading guilty to theft of
to pay restitution in the amount of $927,000      Government funds, the man was sentenced
to three insurance companies and $90,000          to 5 years’ probation and was ordered to pay
to SSA.                                           restitution of $97,884 to SSA.

Disability Program Fraud: Electric                Deceased Payee Project (BIC-D):
Company Owner Defrauds SSA of                     Daughter Conceals Mother’s Death to
$180,066                                          Collect $29,095
Our Phoenix office initiated this investigation   Our Richmond office conducted this
based upon an allegation received from the        investigation as part of the national Deceased
Mesa, Arizona SSA office. The allegation          Payee (BIC-D) project, which identifies
claimed that a Title II disability beneficiary    widows/widowers of Title II beneficiaries
concealed his work activity from SSA while        whose benefits continued to be paid after
collecting benefits for himself and his four      their death. Our agents investigated a
children. Our investigation revealed that in      woman who failed to notify SSA that her
May 1996, the man had obtained full-time          mother had died in November 1999. The
employment with an electric company and           investigation revealed that the mother’s
became co-owner 4 months later. He was            benefits were directly deposited into a bank
responsible for writing checks, managing          account jointly held with her daughter.
financial records, negotiating agreements,        From December 1999 through November
and performing various physical duties in         2002, the woman fraudulently received
the field, earning and concealing between         $29,095 in benefits, which she used to pay
$1,000 and $4,000 monthly. In May 2007,           her household bills and living expenses. In
the man pled guilty to theft of Government        August 2007, after pleading guilty to theft
funds and was sentenced to 12 months              of government funds, she was sentenced to
of incarceration and 3 years of probation.        5 years’ probation, and was ordered to pay
He was also ordered to pay restitution of         full restitution to SSA.
$180,066 to SSA.



April 1 – September 30, 2007                                                                        Value  •  27
         Semiannual Report to Congress




              Double Check Negotiation (DCN)                   Government property and was sentenced in
              Project: Mother Double Negotiates 25             April 2007 to 3 years’ probation and ordered
              Checks                                           to pay restitution of $152,742 to SSA.
              Our Albany office conducted this
              investigation as part of the national DCN        Value Attained Through
              project, which targets individuals who           Legal Initiatives
              repeatedly allege non-receipt of SSI checks
              in order to receive a replacement check, and     OCCIG’s efforts to administer that portion
              then cash both the original and replacement      of the CMP program which deals with
              checks. This investigation revealed that a       violators of Section 1129 of the Act maximize
              woman cashed 25 SSI replacement checks           the resources available to us and create a
              totaling $13,690 over a period of 5 years, for   positive return on investment. Section
              herself and her four children, for whom she      1129 of the Act allows for the imposition
              was representative payee. In April 2007, after   of a CMP against those who make false
              pleading guilty to grand larceny, the woman      statements or representations in connection
              was sentenced to 60 days’ incarceration and      with obtaining or retaining benefits or
              5 years’ probation. She agreed to reimburse      payments under Titles II, VIII, or XVI of
              SSA for the outstanding balance of $6,630,       the Act. In addition, CMPs may be used to
              after $7,060 had already been withheld from      penalize representative payees for wrongful
              her SSI payments.                                                conversion of payments
                                                                                   made under the Social
              Beneficiaries Paid Under Multiple                                      Security programs, and
              SSNs at Same Address Project (MS                                        to penalize individuals
              Project): Woman Receives SSA                                            who knowingly
              Benefits Under Two Different SSNs                                       withhold a material
                                                                                     fact from SSA. After
              This case was opened based on a referral
                                                                                   consultation with the
              from our April 2005 audit, Individuals
                                                                               DOJ, OCCIG is authorized
              Receiving Benefits under Multiple SSNs at the
                                                               to impose penalties of up to $5,000 for each
              Same Address. The investigation, conducted
                                                               false statement, representation, conversion,
              by our New York City office, revealed that
                                                               or omission. A person may also be subject
              a beneficiary fraudulently collected Title II
                                                               to an assessment, in lieu of damages, of
              and Title XVI disability benefits during the
                                                               up to twice the amount of any resulting
              period September 1983 through December
                                                               overpayment.
              2004 under two different names and SSNs.
              Furthermore, she directed the benefits under     The following table and cases highlight the
              both SSNs to separate bank accounts. The         value achieved through our Section 1129
              beneficiary admitted to having two different     efforts for this reporting period.
              SSNs, stating that her original SSN was
              obtained at birth, and the second number
              was assigned to her after she married and
              changed her name. She pled guilty to theft of



28 •  Value                                                                   April 1 – September 30, 2007
                                                                          Semiannual Report to Congress




                          False Statements Under Section 1129 - Results


                                        10/01/06 – 03/31/07 04/01/07 – 09/30/07                   FY 2007

Cases Received                                      272                        273                   545
Cases Initiated                                     173                        215                   388
Cases Closed                                        255                        342                   597
Penalties and Assessments Imposed             $1,296,251                   $3,039,553            $4,335,804
Number of Hearings Requested                        10                          9                     19


Penalty Imposed Against Representative                    SSA’s Annual Earnings Test and continue to
Payee for Making False Statements                         receive full retirement benefits in addition to
                                                          his wages. The employer directed his payroll
OCCIG imposed a $26,880 CMP and                           clerk to apportion part of his earnings to the
assessment in lieu of damages against a Florida           beneficiary’s wife while still crediting him with
woman for making false statements to SSA. The             full-time employment so he could continue to
woman, who was acting as representative payee             receive health insurance benefits.
for her son, told SSA that she and her son did
not live with the son’s father. However, SSA              The retirement beneficiary was criminally
received information that they were all living            prosecuted for theft of Government funds and
together and contacted OIG, which verified the            ordered to make restitution of $18,641 to SSA.
false statements through investigation. These             The employer admitted his wrongdoing to OI
false statements directly affected the son’s              investigators, who referred the case to OCCIG
eligibility for Title XVI payments and caused             for CMP consideration. OCCIG subsequently
SSA to overpay the mother $16,880, an amount              negotiated a $50,000 CMP settlement with the
which will now be recouped through payment                man’s employer.
of the CMP assessment.
                                                          OCCIG Settles Double Check Negotiation
Employer Faces $50,000 Penalty for                        Case for $75,000
Conspiring to Conceal Man’s Wages
                                                          OCCIG negotiated a CMP settlement
OI investigated a Title II retirement beneficiary         agreement of $75,000 with a Massachusetts
and his employer based on an allegation                   SSI recipient with an extensive history of
by the Minden, Louisiana SSA office that                  claiming non-receipt of her SSI payment and
they had concealed the beneficiary’s wages.               then cashing both the original and replacement
The investigation determined that the man                 checks. A local SSA office in Boston referred
persuaded his employer to pay a portion of                the case to the OIG, alleging that the woman
his wages to his wife, in order to circumvent             had committed 20 DCNs in the past 6 years,


 April 1 – September 30, 2007                                                                          Value  •  29
         Semiannual Report to Congress




              and more than 30 over the past decade. Her
              repeated DCNs had caused a $24,156 fraud
              loss to the SSI program. When OCCIG
              began CMP proceedings against the woman
              and attempted to serve her with a penalty
              letter, she evaded service on multiple
              occasions. OI agents in Boston located and
              successfully served the woman, and OCCIG
              eventually settled the case for a $75,000
              penalty. The woman is also making full
              restitution to SSA via withholding of her
              monthly SSI payment.

              Sting Operation Nets Multiple CMP
              Referrals
              In April 2007, our St. Louis office referred
              multiple DCN cases to OCCIG for CMP
              consideration. A pattern of repeated DCNs
              by both Social Security beneficiaries and
              representative payees in the Kansas City,
              Missouri area had led OI agents to conduct
              a “sting” operation. The agents were able to
              identify many repeat offenders in Kansas
              City, St. Louis, and Omaha, Nebraska who
              had double-negotiated checks 5 or more
              times.
              After the USAO declined criminal and civil
              prosecution of the individuals, OI referred
              them to OCCIG, which developed the
              allegations into 70 active cases. OCCIG
              attorneys then gathered the necessary
              evidence and information (copies of
              negotiated checks, current addresses and
              phone numbers, SSA contact names, etc.)
              and began CMP proceedings in many of
              the cases. By September 2007, 11 cases
              had been closed, resulting in $209,500 in
              penalties. OCCIG is currently taking CMP
              action on another 53 of these cases.




30 •  Value                                                  April 1 – September 30, 2007
                                                                    Semiannual Report to Congress




People                                           Human Capital Planning and
We continue to enjoy success in achieving our
                                                 Management
mission due in large part to the outstanding     We actively pursue and work to retain the
efforts of our employees. We work to retain      best possible employees. First, our budget
these talented individuals by providing a        and staffing plan forecasts employee
positive and rewarding work environment.         departures based on historical trends and
OIG leadership has created a culture where       human resource data, which allows us to
employees can realize their potential through    establish optimal timeframes for recruiting
training opportunities and developmental         new employees. Moreover, OIG managers
assignments. The OIG Organizational Health       monitor staffing to ensure that vacant
Committee annually assesses employee             positions are filled promptly, ensuring that
satisfaction levels and addresses areas of       OIG components have the ability to fulfill
concern. In addition, OIG components             their respective missions.
conduct training conferences each year to
                                                 Our human capital specialists and recruiters
educate their employees on new operational
                                                 participate in job and career fairs nationwide.
procedures and to promote teamwork.
                                                 These events target underrepresented groups
                                                 in the labor market, allowing us to maintain
Budget                                           a truly diverse workforce. Once we identify
                                                 the best candidates, we employ a structured
For FY 2007, our annual appropriation
                                                 interview process to fairly assess their
was $92 million, which supported an end-         qualifications. Through these efforts, we
of-year staffing level of 590 employees.         have recently hired 23 employees and plan
The salaries and benefits of our employees       to hire an additional 17 employees early in
accounted for approximately 84 percent of        FY 2008.
our spending. We used the remaining 16
percent for necessary expenses such as travel,   Also during this reporting period, the
training, communications, reimbursable work      Inspector General convened an internal
authorizations, and general procurements,        workgroup to address the timely issue of
as well as to provide for basic infrastructure   succession planning. This decision was based
needs such as rent and interagency               on a comprehensive and long-range analysis of
service agreements. The FY 2007 budget           our current workforce, which found that OIG
supported our efforts to meet and exceed         has many employees who will be eligible to
the expectations set forth in our Strategic      retire within the next 5 years. The succession
Plan for FYs 2006-2010. Our Strategic            planning workgroup is developing a training
Plan goals and accomplishments will also         and development program with the goal of
                                                 producing highly qualified candidates for
be published in the Annual Congressional
                                                 future leadership vacancies. The workgroup’s
Budget Justification.
                                                 plan will be implemented beginning in FY
                                                 2008.




April 1 – September 30, 2007                                                                   People  •    31
          Semiannual Report to Congress




               Information Technology (IT)                       Outreach Efforts
               We provide and maintain most of our own           We are always seeking new ways to reach
               information technology (IT) systems. Our          out to the wider Federal community as well
               IT specialists value state-of-the-art tools and   as to members of the public. In a variety of
               place a high priority on ensuring that our        venues, we share our mission of promoting
               employees have the latest proven technologies     integrity and excellence in Social Security
               with which to perform their work.                 programs and operations. These occasions
                                                                 are important opportunities to exchange
               During this reporting period, we continued
                                                                 information and forge partnerships. They
               to build a comprehensive administrative
                                                                 also give us the chance to educate and inspire
               database that will allow for interconnectivity
                                                                 public confidence in Federal programs.
               between OIG’s components. Modules for
               budget, workflow processing, and facilities       Senior OIG officials addressed national
               management are being refined prior to their       audiences on current issues of interest during
               release.                                          this reporting period. In September 2007,
                                                                 Inspector General O’Carroll addressed the
               In support of the President’s goal to expand
                                                                 Kansas City chapter of the Association of
               electronic services, we maintain an Internet
                                                                 Government Accountants regarding the OIG’s
               website that is informative and useful to
                                                                 role in maintaining Social Security number
               the public. Citizens using our web-based
                                                                 integrity. Also in September, IG O’Carroll was
               services will find them easy-to-understand.
                                                                 a featured speaker at the National Association
               A workgroup comprised of auditors,
                                                                 of Disability Examiners’ annual conference
               investigative personnel, legal experts, and
                                                                 in Sioux Falls, South Dakota. In this forum,
               administrative technicians continuously
                                                                 IG O’Carroll shared current OIG initiatives
               monitors the OIG website to ensure that all
                                                                 aimed at improving SSA’s disability programs.
               information is accurate and up-to-date.
                                                                 Finally, Deputy Chief Counsel for External
               Finally, our IT staff analyzes industry trends    Relations Jonathan Lasher was featured on
               to find new technologies that may enhance         a panel at the Association of Government
               our business processes. In FY 2007, for           Accountants’ 2007 Internal Control and
               example, we began implementing technology         Fraud Conference in Atlanta in September
               aimed at improving our disaster recovery          2007. Deputy Chief Counsel Lasher spoke
               capabilities. In addition, OIG software           about the Federal Government’s efforts to
               specialists and contract personnel have worked    protect Americans’ personally identifiable
               during this reporting period to implement         information.
               enhancements to our National Investigative
               Case Management System, which is already          OIG employees are active in their local
               a model for investigative case management         communities, in both personal and
               across the Federal Government.                    professional capacities. Following are
                                                                 highlights of our outreach efforts during this
                                                                 reporting period:




32 •  People                                                                    April 1 – September 30, 2007
                                                                  Semiannual Report to Congress




        In May 2007, special agents from       SSA prepare for similar events in the
        our Philadelphia and Houston           future. Our auditors have completed three
        offices participated with other law    hurricane-related audits, assessing SSA’s
        enforcement personnel in child         service delivery and its accountability over
        safety events sponsored by the         1) duplicate payments, equipment, and
National Center for Missing and Exploited      records; and 2) disaster relief funds. In
Children. Parents were provided free child     addition, attorneys from our Office of the
safety kits, and children were fingerprinted   Chief Counsel have represented the OIG
and photographed.                              on the PCIE/ECIE Homeland Security
                                               Roundtable, the collaborative effort for
       Personnel from our Kansas City
                                               hurricane recovery oversight across Federal
       office recently participated in the
                                               agencies.
       “Run for Mercy 2007,” which raised
       funds for children in South Africa      Because the SSN is a key identifier for
      affected by AIDS, and in a United        the various relief programs, SSA OIG is a
Way charity event with Centers for Medicare    critical partner in multi-agency investigations
and Medicaid Services employees.               of hurricane-related fraud. We have also
                                               assigned an agent to the DOJ’s Hurricane
        The Resident Agent-in-Charge
                                               Katrina Fraud Task Force in Louisiana,
        of our Batavia office serves on the
                                               where we have been involved in numerous
        Board of Advisors to the Criminal
                                               joint investigations of hurricane-related
        Justice Departments at the State
                                               fraud. Since the inception of the Task
       University of New York at Brockport
                                               Force, OI has opened 57 investigations.
and Roberts Wesleyan College in Rochester.
                                               For this reporting period, our investigators
He also actively supports youth programs by
                                               secured 4 indictments and 10 convictions
providing assistance to the Monroe County
                                               of individuals for hurricane-related fraud.
Police Explorer Academy in Rochester.
                                               Following are highlights of our hurricane-
        A Special Agent from our               related investigative activity during this
        Houston office founded a non-          reporting period.
        profit organization serving less       Man Files 39 Applications for Disaster
        fortunate individuals in the           Unemployment Assistance
       community. The organization
has run donation drives for area families,     In cooperation with the Louisiana
and partnered with Texas Children’s            Department of Labor (DOL), U. S. Postal
Hospital to provide free immunizations to      Inspection Service, and U. S. Marshals
underprivileged children.                      Service, agents from our Baton Rouge office
                                               investigated a 46-year-old Villa Rica, Georgia
                                               resident for making fraudulent applications
Hurricane Response Efforts                     for Disaster Unemployment Assistance
We continue to be actively involved in         funds. Our investigation revealed that the
                                               man submitted 39 applications containing
pursuing investigations of fraud related to
                                               false identities and SSNs of alleged
Hurricanes Katrina and Rita and helping


April 1 – September 30, 2007                                                                 People  •    33
          Semiannual Report to Congress




               Hurricane Katrina victims to the Louisiana      year-old Title XVI disability beneficiary,
               DOL. As a result of his actions, the man        living in Columbia, South Carolina, made
               received $39,835 in hurricane disaster funds    fraudulent claims to FEMA in order
               from the Federal Emergency Management           to receive disaster assistance associated
               Agency (FEMA). In July 2007, the man            with Hurricanes Katrina and Rita. Our
               pled guilty to wire fraud and illegal use of    investigation uncovered a loss of $27,311.
               an SSN. He was sentenced to 27 months’
                                                               In March 2007, she pled guilty to theft of
               incarceration and 5 years’ supervised release
                                                               Government funds and misuse of a SSN, and
               and was ordered to pay full restitution to
                                                               was sentenced to 16 months’ incarceration
               FEMA.
                                                               and 6 years’ probation. She was also ordered
               Man Files 18 Claims for Hurricane               to pay restitution of $23,741 to FEMA and
               Relief Funds                                    $3,570 to SSA.

               Agents from our Houston office, in              Hurricane Rita Evacuee Attempts
               coordination with the U. S. Postal Inspection   to Collect Disability Benefits While
               Service, Department of Homeland Security,       Working
               and Small Business Administration,
               investigated a 26-year-old Houston resident     Investigators from our Houston CDI unit
               who filed 18 fraudulent applications for        investigated a 46-year-old woman who filed
               FEMA disaster assistance, each time using       for Title II and Title XVI disability benefits
               a different SSN and a unique “damaged           based on allegations of depression, anxiety,
               address” in New Orleans and Lake Charles,       and high blood pressure. The woman
               Louisiana, and in Beaumont, Texas.              reported she relocated to Houston in the
               FEMA paid the man 18 separate $2,000            aftermath of Hurricane Rita, which resulted
               expedited assistance checks. These checks       in emotional problems due to “stress from
               were issued before inspectors visited the       the hurricane.” She also alleged memory
               addresses listed on the applications. Our       problems and difficulty making decisions.
               investigation revealed that the man was a
                                                               Our investigators learned that the woman
               long-time resident of Houston and lived
                                                               received a FEMA housing allotment to live in
               there throughout 2005 when Hurricanes
                                                               a hotel, with her mother and three children,
               Katrina and Rita hit the U.S.
                                                               after the hurricane. Hotel staff reported that
               In June 2007, the man pled guilty to mail       the woman and her family would stay at the
               fraud and aggravated identity theft, was        hotel about 2 days a week and then be gone
               sentenced to 45 months’ incarceration and 36    for days. When investigators interviewed the
               months’ supervised release, and was ordered     woman, she told them she was employed by a
               to pay partial restitution to FEMA.             human resources agency and also worked as
                                                               a realtor. She drove a car and lived in a house
               South Carolina Woman Applies for                in an affluent neighborhood. The woman
               Hurricane Disaster Relief                       was articulate and communicated well when
               Agents in our Columbia office initiated this    speaking to the CDI Unit investigators. SSA
               investigation based on a request from the       subsequently denied her Title II and Title
               FBI. Our investigation revealed that a 34-      XVI disability claims.


34 •  People                                                                  April 1 – September 30, 2007
                                                     Semiannual Report to Congress




                               A Special Thank You
                The diligent work, outstanding efforts,
                and many contributions of our entire OIG
                staff make the numerous accomplishments
                highlighted in this Semiannual Report to
                Congress possible.
                We would like to thank them for their
                dedicated spirit and many successes.




April 1 – September 30, 2007                                              People  •    35
     Semiannual Report to Congress




36                                   April 1 – September 30, 2007
                                    Semiannual Report to Congress




                   Reporting Requirements
                             and
                         Appendices




April 1 – September 30, 2007              Reporting Requirements  •   37
          Semiannual Report to Congress




          Reporting Requirements
          This report meets the requirements of the Inspector General Act of 1978, as amended, and
          includes information mandated by Congress.



                Section                             Requirement                               Page(s)

              Section 4(a)(2)    Review of legislation and regulations                          N/A


              Section 5(a)(1)    Significant problems, abuses, and deficiencies                 8-30


              Section 5(a)(2)    Recommendations with respect to significant problems,
                                                                                             8-11, 21-23
                                 abuses, and deficiencies

              Section 5(a)(3)    Recommendations described in previous Semiannual           Appendices F
                                 Reports on which corrective actions are incomplete            &G

              Section 5(a)(4)    Matters referred to prospective authorities and the
                                                                                             12-19, 24-28
                                 prosecutions and convictions that have resulted

             Section 5(a)(5) &
                                 Summary of instances where information was refused             N/A
              Section 6(b)(2)


              Section 5(a)(6)    List of audits                                              Appendix B


              Section 5(a)(7)    Summary of particularly significant reports                 8-11, 21-23

                                 Table showing the total number of audit reports and
              Section 5(a)(8)                                                                Appendix A
                                 total dollar value of questioned costs

                                 Table showing the total number of audit reports and
              Section 5(a)(9)                                                                Appendix A
                                 total dollar value of funds put to better use

                                 Audit recommendations more than 6 months old for
             Section 5(a)(10)                                                                Appendix A
                                 which no management decision has been made

                                 Significant management decisions that were revised
             Section 5(a)(11)                                                                   N/A
                                 during the reporting period

                                 Significant management decisions with which the
             Section 5(a)(12)                                                                Appendix D
                                 Inspector General disagrees




38  •  Reporting Requirements                                                     April 1 – September 30, 2007
                                                                                 Semiannual Report to Congress




Appendix A: Resolving Audit Recommendations
The following chart summarizes SSA’s responses to our recommendations for the recovery or
redirection of questioned and unsupported costs. Questioned costs are those costs that are challenged
because of a violation of law, regulation, etc. Unsupported costs are those costs that are questioned
because they are not justified by adequate documentation. This information is provided in accordance
with P.L. 96- 304 (the Supplemental Appropriations and Recession Act of 1980) and the Inspector
General Act of 1978, as amended.


                 Reports with Questioned Costs for the Reporting Period
                                April 1, 2007 – September 30, 2007
                                                                                Value                 Value
                                                            Number
                                                                           Questioned            Unsupported
  A.	For which no management decision had been made
                                                                12              $26,866,460                $75,051
     by the commencement of the reporting period.

  B.	 Which were issued during the reporting period.            22a            $794,823,344               $106,173

      	   Subtotal (A + B)                                      34             $821,689,804               $181,224

  	 Less:

  C.	 For which a management decision was made
                                                                18b            $153,532,975                $75,051
      during the reporting period.

  	 i.	 Dollar value of disallowed costs.                       13               $9,165,146                $75,051

  	 ii.	 Dollar value of costs not disallowed.                   5             $144,367,829                      $0

  D.	For which no management decision had been made
                                                                19             $668,156,829               $106,173
     by the end of the reporting period.


­a. 	 See Reports with Questioned Costs in Appendix B of this report.
­b. 	 Administrative Costs Claimed by the Tennessee Disability Determination Services (A-04-06-16053) contained dollars
      that were disallowed and dollars not disallowed.




April 1 – September 30, 2007                                                                              Appendices  • 39
                                                                                                                        39
         Semiannual Report to Congress




         The following chart summarizes SSA’s response to our recommendations that funds be put to
         better use through cost avoidances, budget savings, etc.


                     Reports with Recommendations that Funds Be Put to Better Use
                         Reporting Period April 1, 2007 – September 30, 2007
                                                                                              Number      Dollar Value
           A.	For which no management decision had been made by the
                                                                                                  5        $2,570,832,901
              commencement of the reporting period.

           B.	 Which were issued during the reporting period.                                    10a        $318,977,901

           			 Subtotal (A + B)                                                                   15       $2,889,810,802

           	 Less:

           C.	For which a management decision was made during the reporting
              period.

            i.	Dollar value of recommendations that were agreed to by management.

                (a) Based on proposed management action.                                          8          $36,000,133

                (b) Based on proposed legislative action.                                         0                   $0

            ii.	    Dollar value of costs not agreed to by management.                            3        $2,593,588,737

           			 Subtotal (i + ii)                                                                 11b       $2,629,588,870

           D.	For which no management decision had been made by the end of the
                                                                                                  5         $260,221,932
              reporting period.


            ­a.	    See Reports with Funds Put to Better Use in Appendix B of this report.
            b­ .	   Administrative Costs Claimed by the Tennessee Disability Determination Services
             	      (A-04-06-16053) contained dollars that were disallowed and dollars not disallowed.




40 •  Appendices
40                                                                                           April 1 – September 30, 2007
                                                                                      Semiannual Report to Congress




Appendix B: Reports Issued
                           Reports with Non-Monetary Findings
                             October 1, 2006 – September 30, 2007
Audit Number                                             Report                                           Issue Date

   A-03-05-25009   Effectiveness of the Young Children’s Earnings Records Reinstatement Process           10/20/2006

                   Management Advisory Report: Single Audit of the State of Florida for the Fiscal Year
   A-77-07-00001                                                                                          10/27/2006
                   Ended June 30, 2005
                   Management Advisory Report: Single Audit of the State of Maryland for the Fiscal
   A-77-07-00002                                                                                          10/27/2006
                   Year Ended June 30, 2005
                   Inspector General Statement on the Social Security Administration’s Major
   A-02-07-17075                                                                                          11/3/2006
                   Management Challenges

   A-15-06-16099   Social Security Administration’s Financial Report for Fiscal Year 2006                 11/7/2006

                   Management Advisory Report: Single Audit of the State of New York for the Fiscal
   A-77-07-00003                                                                                          11/22/2006
                   Year Ended March 31, 2005
                   Management Advisory Report: Single Audit of the Commonwealth of Pennsylvania for
   A-77-07-00004                                                                                          11/22/2006
                   the Fiscal Year Ended June 30, 2005
                   Costs Claimed by the Association of University Centers on Disabilities Contract
   A-15-07-17031                                                                                          12/1/2006
                   Number 600-01-60127 (Limited Distribution)
                   Management Advisory Report: Single Audit of the State of South Carolina for the
   A-77-07-00005                                                                                          12/4/2006
                   Fiscal Year Ended June 30, 2005
                   Congressional Response Report: Employer Feedback on the Social Security
   A-03-06-26106                                                                                          12/14/2006
                   Administration’s Verification Programs
                   Congressional Response Report: Accuracy of the Social Security Administration’s
   A-08-06-26100                                                                                          12/18/2006
                   Numident File

   A-14-05-14042   Impact of Unauthorized Employment on Social Security Benefits                          12/21/2006

   A-15-06-16091   MAXIMUS’ Indirect Cost Rates for Fiscal Years 2002 and 2003 (Limited Distribution)     12/21/2006

                   General Controls Review of the Florida Division of Disability Determinations Claims
   A-14-06-16023                                                                                          1/10/2007
                   Processing System
                   Follow-up: Analysis of Information Concerning Representative Payee Misuse of
   A-13-06-26097                                                                                          1/18/2007
                   Beneficiaries’ Payments
                   Contract for the Meridian Management Corporation at the Great Lakes Program
   A-05-07-17058                                                                                          1/29/2007
                   Service Center (Limited Distribution)
                   Management Advisory Report: Single Audit of the Hawaii Department of Human
   A-77-07-00007                                                                                          2/5/2007
                   Services for the Fiscal Year Ended June 30, 2005

   A-09-06-16101   The Las Vegas Social Security Card Center                                              2/8/2007


   A-15-06-16065   Controls over Representative Payee Accounting of Social Security Funds                 2/26/2007

   A-77-07-00008   Management Advisory Report: Single Audit of the Government of the District of
                                                                                                          2/27/2007
                   Columbia for the Fiscal Year Ended September 30, 2005




April 1 – September 30, 2007                                                                                  Appendices  • 41
                                                                                                                            41
         Semiannual Report to Congress




                                      Reports with Non-Monetary Findings
                                        October 1, 2006 – September 30, 2007
             Audit
                                                                  Report                                             Issue Date
            Number
           A-15-06-16111   Performance Indicator Audit: Electronic Service Delivery                                    3/8/2007


           A-15-06-16109   Performance Indicator Audit: Claims Processing                                             3/16/2007

                           The Social Security Administration’s Accountability of Federal Emergency Management
           A-06-06-26138                                                                                              3/23/2007
                           Agency Funds Provided for Hurricane Relief Efforts
                           Management Advisory Report: Single Audit of the State of Illinois for the Fiscal Year
           A-77-07-00009                                                                                              3/23/2007
                           Ended June 30, 2005
                           Management Advisory Report: Single Audit of the State of New Jersey for the Fiscal Year
           A-77-07-00011                                                                                              3/23/2007
                           Ended June 30, 2005

           A-12-06-26130   Management’s Use of Workload Status Reports at Hearing Offices                             3/26/2007


           A-03-06-16062   The Social Security Administration’s Compliance with Employee Tax Requirements              4/6/2007

                           Accountability over Duplicate Payments, Equipment and Records in the Hurricane
           A-06-06-26137                                                                                              4/23/2007
                           Recovery Area

           A-06-06-26140   Supplemental Security Income Payments Mailed to Field Office Addresses                     4/23/2007

                           The Social Security Administration’s Oversight of the PSI Group, Inc., Presort Mail
           A-15-07-17032                                                                                              4/24/2007
                           Contract -- Contract # GS-25F-0010M (Limited Distribution)

           A-02-06-16110   Performance Indicator Audit: Disability Determination Services Processing                   5/8/2007


           A-12-07-27162   Organizational Review of the Office of Disability and Income Security Programs             5/16/2007


           A-15-06-16113   Performance Indicator Audit: Hearings and Appeals Process                                  5/17/2007

           A-13-07-27123   Phase 6 of the Social Security Administration’s Special Disability Workload                5/18/2007
                           FECA: A Nationwide Review of Federal Employees Who Received Compensation for
           A-15-06-16037   Lost Wages for Periods When “Earned Wages” Were Reported on the Social Security            5/18/2007
                           Administration’s Master Earnings File
                           The Social Security Administration’s Information Technology Maintenance and Local Area
           A-14-07-17022                                                                                              5/21/2007
                           Network Relocation Contract

           A-01-07-17035   Quick Disability Determinations                                                            5/31/2007

                           Performance Review of the Social Security Administration’s National Computer Center
           A-15-06-16139                                                                                              5/31/2007
                           and Security West Building Guard Service Contract (Limited Distribution)

           A-08-07-17043   Original Social Security Numbers Assigned to U.S. Citizens Age 12 or Older                 6/18/2007

                           Contract with Riojas Enterprises, Incorporated, for Case Folder Filing Support
           A-04-07-17027                                                                                              6/19/2007
                           Services - Contract #0600-98-34420




42 •  Appendices
42                                                                                                April 1 – September 30, 2007
                                                                                        Semiannual Report to Congress




                             Reports with Non-Monetary Findings
                               October 1, 2006 – September 30, 2007
    Audit
                                                           Report                                            Issue Date
   Number
  A-04-07-17026   Field Office Use of the SS-5 Assistant                                                       7/2/2007


  A-08-07-17076   Assignment of Social Security Numbers to J-1 Exchange Visitors                              7/20/2007


  A-14-07-17099   Social Security Administration’s Management of Information Technology Projects              7/26/2007

                  Social Security Administration’s Progress in Implementing Homeland Security Presidential
  A-14-07-27110                                                                                               7/26/2007
                  Directive 12
                  The Social Security Administration’s Monitoring of Dedicated Accounts for Supplemental
  A-13-06-16032                                                                                                8/3/2007
                  Security Income Recipients

  A-14-07-17070   The Social Security Administration’s Incident Response and Reporting System                  8/3/2007


  A-03-05-25018   Overstated Earnings and Their Effect on Social Security Administration Programs              8/7/2007


  A-06-06-16088   Controls over Survivor’s Benefits When Indications Exist a Wage Earner is Alive              8/8/2007


  A-15-07-17128   Performance Indicator Audit: Improper Payments                                              8/31/2007


  A-02-07-27021   Compliance with Onsite Security Control and Audit Review Requirements at Field Offices       9/4/2007


  A-03-06-15036   Controls Over Employee Verification Programs                                                 9/4/2007

                  Management Advisory Report: Third Parties Applying for Medicare Part D Low-Income
  A-08-07-27177                                                                                                9/5/2007
                  Subsidies on Behalf of Others (Limited Distribution)

  A-08-07-17086   State and Local Governments’ Collection and Use of Social Security Numbers                  9/10/2007


  A-12-07-27091   Workload Activity at Five Hearing Offices in Region IV                                      9/10/2007


  A-08-07-17085   Assessment of F-1 Students’ Use of Social Security Numbers                                  9/12/2007


  A-02-07-17127   Performance Indicator Audit: Staff Skills and Productivity                                  9/24/2007

                  Disability Insurance Beneficiaries Convicted of Crimes Against the Social Security
  A-06-06-16132                                                                                               9/24/2007
                  Administration’s Programs
                  Payee Services, A Fee-for-Service Organizational Representative Payee for the Social
  A-07-07-27150                                                                                               9/24/2007
                  Security Administration (Limited Distribution)
                  Social Security Numbers Assigned to Citizens of Compact of Free Association Countries
  A-08-07-17077                                                                                               9/24/2007
                  (Limited Distribution)
                  Fiscal Year 2007 Evaluation of the Social Security Administration’s Compliance with the
  A-14-07-17101                                                                                               9/24/2007
                  Federal Information Security Management Act




April 1 – September 30, 2007                                                                                    Appendices  • 43
                                                                                                                              43
         Semiannual Report to Congress




                                      Reports with Non-Monetary Findings
                                       October 1, 2006 – September 30, 2007
             Audit
                                                                   Report                                              Issue Date
            Number
           A-15-07-17129   Performance Indicator Audit: Customer Satisfaction                                           9/24/2007

                           The Validity of Earnings Posted to the Social Security Administration’s Master Earnings
           A-02-06-26051                                                                                                9/28/2007
                           File for Children Ages 7 through 13

           A-03-07-17065   Effectiveness of the Single Select Edit Routine                                              9/28/2007


           A-12-07-17057   Claimant Representatives Barred from Practicing before the Social Security Administration    9/28/2007


           A-12-07-17080   On-site Security Control and Audit Review at Hearing Offices                                 9/28/2007

                           Access to Social Security Administration Data Provided by Disability Determination
           A-14-07-17024                                                                                                9/28/2007
                           Services Positional Profiles (Limited Distribution)

           A-14-07-27133   The Social Security Administration’s Information Resources Management Strategic Plan         9/28/2007




44 •  Appendices
44                                                                                               April 1 – September 30, 2007
                                                                                     Semiannual Report to Congress




                                 Reports with Questioned Costs
                              October 1, 2006 – September 30, 2007
 Audit
                Issue Date                                    Report                                       Dollar Amount
Number
                              Administrative Costs Claimed by the Vermont Disability Determination
A-01-06-16041    10/27/2006                                                                                          $3,362
                              Services
                              Supplemental Security Income Recipients Whose Medicare Benefits Were
A-01-06-26105    11/14/2006                                                                                        $490,288
                              Terminated Due to Death

A-04-05-15133    11/22/2006   Title II Disability Insurance Benefits with a Workers’ Compensation Offset        $216,278,326


A-01-06-26131    12/11/2006   Title II Beneficiaries in England                                                     $24,049


A-01-06-21093    12/20/2006   Childhood Continuing Disability Reviews and Age 18 Redeterminations               $199,165,109

                              Management Advisory Report: Single Audit of the State of Washington
A-77-07-00006    1/18/2007                                                                                          $76,021
                              for the Fiscal Year Ended June 30, 2005
                              Administrative Costs Claimed by the Maryland Disability Determination
A-13-06-16029     2/5/2007                                                                                         $151,641
                              Services
                              The Social Security Administration’s Collection of Court-ordered
A-02-06-26019     3/2/2007                                                                                       $18,340,375
                              Restitution
                              Direct Deposits for Multiple Title XVI Recipients into the Same Bank
A-02-06-25141    3/23/2007                                                                                        $1,226,318
                              Account
                              Kansas Department of Social and Rehabilitation Services, an
A-07-07-17045    3/23/2007    Organizational Representative Payee for the Social Security                            $8,840
                              Administration
                              Administrative Costs Claimed by the Florida Division of Disability
A-15-06-16127    3/23/2007                                                                                        $2,379,104
                              Determinations
                              Administrative Costs Claimed by the Tennessee Disability Determination
A-04-06-16053    3/30/2007                                                                                        $2,449,320
                              Services
                              Defense Contract Audit Agency’s Audit of Lockheed Martin Services, Inc.
A-15-07-27117    3/30/2007    Incurred Costs for Calendar Year Ending December 31, 2004 (DCAA                     $2,551,124
                              Report Number 6501-2004B10100001)
                              Management Advisory Report: Single Audit of the Puerto Rico
A-77-07-00010    3/30/2007                                                                                         $207,302
                              Department of the Family for the Fiscal Year Ended June 30, 2003
                              Supplemental Security Income Recipients Eligible as Disabled Adult
A-13-07-17073    4/30/2007                                                                                         $114,254
                              Children Under the Old-Age, Survivors and Disability Insurance Program

A-01-07-27122    5/14/2007    Adjustment of Widow’s Insurance Benefits at Full Retirement Age                   $113,721,946

                              Administrative Costs Claimed by the Mississippi Disability Determination
A-08-06-16125    5/18/2007                                                                                          $27,681
                              Services
                              Administrative Costs Claimed by the Illinois Disability Determination
A-05-06-16118    5/22/2007                                                                                         $208,471
                              Services
                              Administrative Costs Claimed by the Idaho Disability Determination
A-09-06-16120    5/30/2007                                                                                         $800,000
                              Services
                              The Social Security Administration’s Controls and Procedures over
A-09-06-16128    5/31/2007                                                                                        $2,404,124
                              Supplemental Security Income Death Alerts


April 1 – September 30, 2007                                                                                  Appendices  • 45
                                                                                                                            45
         Semiannual Report to Congress




                                         Reports with Questioned Costs
                                       October 1, 2006 – September 30, 2007
            Audit
                          Issue Date                                  Report                                      Dollar Amount
           Number
                                       Administrative Costs Claimed by the New York Division of Disability
          A-02-07-17046    6/11/2007                                                                                       $132,403
                                       Determinations

          A-13-06-16031    6/22/2007   Cross-Program Recovery of Benefit Overpayments                                   $10,922,467

                                       Administrative Costs Claimed by the West Virginia Disability
          A-13-06-16121    6/27/2007                                                                                     $3,134,805
                                       Determination Services
                                       An Individual Representative Payee for the Social Security
          A-09-07-17063     7/3/2007                                                                                        $34,868
                                       Administration in the San Francisco Region
                                       Administrative Costs Claimed by the Missouri Disability Determination
          A-07-06-16098    7/12/2007                                                                                         $4,564
                                       Services
                                       Administrative Costs Claimed by the California Disability Determination
          A-09-06-16129    7/31/2007                                                                                     $1,658,596
                                       Services
                                       Administrative Costs Claimed by the New Jersey Department of Labor,
          A-02-06-16043     8/3/2007                                                                                         $3,342
                                       Division of Disability Determination Services

          A-07-07-17034    8/31/2007   Underpayments on Prior Supplemental Security Income Records                     $169,730,993


          A-09-07-17066    8/31/2007   Improper Payments Resulting from the Annual Earnings Test                       $348,680,140

                                       Management Advisory Report: Defense Contract Audit Agency’s Audit
          A-15-08-28046    8/31/2007   of Lockheed Martin Services, Inc., Incurred Costs for Calendar Year               $1,940,162
                                       Ending December 31, 2005 (Limited Distribution)
                                       Management Advisory Report: Adequacy of the Administrative Practices
          A-04-07-27153     9/5/2007   in the Atlanta North Office of Disability Adjudication and Review                   $386,261
                                       (Limited Distribution)
                                       Administrative Finality in the Old-Age, Survivors and Disability
          A-01-07-27029    9/24/2007                                                                                   $140,533,069
                                       Insurance Program
                                       Contract with I. Levy and Associates for Development and
          A-07-07-17104    9/24/2007   Implementation of the Electronic Folder Interface at Disability                       $6,845
                                       Determination Services
                                       Management Advisory Report: Single Audit of the Commonwealth of
          A-77-07-00012    9/24/2007                                                                                        $64,177
                                       Pennsylvania for the Fiscal Year Ended June 30, 2006
                                       Management Advisory Report: Single Audit of the State of Arizona for
          A-77-07-00013    9/24/2007                                                                                         $7,363
                                       the Fiscal Year Ended June 30, 2006

                                       Follow-Up Audit: Indirect Costs for the Connecticut Disability
          A-15-07-16034    9/28/2007                                                                                       $412,986
                                       Determination Services for the Period July 1, 2003 through June 30, 2005

                                                   TOTAL                                                             $1,238,280,696




46 •  Appendices
46                                                                                           April 1 – September 30, 2007
                                                                                      Semiannual Report to Congress




                                 Reports with Funds Put to Better Use
                                 October 1, 2006 – September 30, 2007
    Audit
                   Issue Date                                    Report                                      Dollar Amount
   Number
                                  Follow up on the Social Security Administration’s Procedures to Identify
   A-01-06-16054    10/27/2006                                                                                     $25,504,667
                                  Representative Payees Who Are Deceased
                                  Supplemental Security Income Recipients Whose Medicare Benefits
   A-01-06-26105    11/14/2006                                                                                        $237,103
                                  Were Terminated Due to Death
                                  Title II Disability Insurance Benefits with a Workers’ Compensation
   A-04-05-15133    11/22/2006                                                                                     $83,144,832
                                  Offset

   A-01-06-26131    12/11/2006    Title II Beneficiaries in England                                                    $17,628


   A-01-06-21093    12/20/2006    Childhood Continuing Disability Reviews and Age 18 Redeterminations             $105,552,612

                                  Impact of Statutory Benefit Continuation on Disability Insurance
   A-07-05-15094    12/21/2006                                                                                     $44,997,323
                                  Benefit Payments Made During the Appeals Process
                                  Government Pension Offset Exemption for Texas School Districts’
   A-09-06-26086     1/8/2007                                                                                    $2,537,391,759
                                  Employees

                                  Direct Deposits for Multiple Title XVI Recipients into the Same Bank
   A-02-06-25141    3/23/2007                                                                                         $264,390
                                  Account

                                  Administrative Costs Claimed by the Commonwealth of Puerto Rico
   A-06-06-16117    3/26/2007                                                                                       $1,107,250
                                  Disability Determination Program
                                  Administrative Costs Claimed by the Tennessee Disability
   A-04-06-16053    3/30/2007                                                                                       $6,564,835
                                  Determination Services

   A-01-07-27122    5/14/2007     Adjustment of Widow’s Insurance Benefits at Full Retirement Age                 $137,808,597

                                  Administrative Costs Claimed by the Illinois Disability Determination
   A-05-06-16118    5/22/2007                                                                                         $807,851
                                  Services
                                  Contract for the Migration of I. Levy Software at Disability
   A-07-07-17033    5/24/2007                                                                                           $3,000
                                  Determination Services (Limited Distribution)
                                  Administrative Costs Claimed by the Idaho Disability Determination
   A-09-06-16120    5/30/2007                                                                                         $876,476
                                  Services

   A-13-06-16031    6/22/2007     Cross-Program Recovery of Benefit Overpayments                                    $6,147,424

                                  Administrative Costs Claimed by the West Virginia Disability
   A-13-06-16121    6/27/2007                                                                                       $1,503,361
                                  Determination Services
                                  An Individual Representative Payee for the Social Security
   A-09-07-17063     7/3/2007                                                                                          $36,198
                                  Administration in the San Francisco Region
                                  Administrative Costs Claimed by the New Jersey Department of Labor,
   A-02-06-16043     8/3/2007                                                                                       $5,800,583
                                  Division of Disability Determination Services

   A-09-07-17066    8/31/2007     Improper Payments Resulting from the Annual Earnings Test                       $116,226,713

                                  Administrative Finality in the Old-Age, Survivors and Disability
   A-01-07-27029    9/24/2007                                                                                      $49,767,698
                                  Insurance Program

                                             TOTAL                                                              $3,123,760,300


April 1 – September 30, 2007                                                                                   Appendices  • 47
                                                                                                                             47
         Semiannual Report to Congress




         Appendix C: Reporting Requirements Under the
         Omnibus Consolidated Appropriations Act for FY 1997
         To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208,
         we are providing requisite data for FY 2007 from the Offices of Investigations and Audit in this
         report.
         Office of Investigations
         We are reporting over $36 million in SSA funds as a result of our investigative activities in this
         reporting period. These funds are broken down in the table below.


                                            Investigative Activities

                           1st Quarter 2nd Quarter 3rd Quarter 4th Quarter                     Total
           Court Ordered
                              $7,012,788      $ 8,102,954    $6,863,938        4,455,946     $26,435,626
            Restitution

             Recoveries      $11,082,762     $ 10,762,718   $12,069,915      $10,166,381     $44,081,776


                Fines           $225,727        $559,120     $1,006,516       $1,305,748       $3,097,111

            Settlements/
                                $212,252        $309,836       $115,600          $95,624        $733,312
             Judgments

              TOTAL          $18,533,529     $ 19,734,628   $20,055,969      $16,023,699     $74,347,825


          Office of Audit
          SSA management has informed us that it has completed implementing recommendations from 17 audit
          reports during this time period valued at over $320 million.

          Administrative Costs Claimed by the New Jersey Department of Labor,
          Division of Disability Determination Services (NJ-DDS) (A-02-06-16043,
          8/3/2007)

          We recommended that responsible SSA Headquarters’ components, the Regional Office’s Center for
          Disability and NJDDS personnel work together to determine the appropriateness of the movement of
          ASAP funds between FYs. The implemented value of this recommendation is $5,797,572.

          Administrative Costs Claimed by the New Jersey Department of Labor,
          Division of Disability Determination Services (A-02-06-16043, 8/3/2007)

          We recommended that SSA verify the adjustment of $3,011 of Nonpersonnel Service Costs representing
          mailgram expenses incurred in FY 2005 but charged to FY 2004.



48 •  Appendices
48                                                                            April 1 – September 30, 2007
                                                                         Semiannual Report to Congress




 Administrative Costs Claimed by the West Virginia Disability
 Determination Services (WV-DDS) (A-13-06-16121, 6/27/2007)

 We recommended that SSA require the WV DDS to provide supporting documentation or withdraw
 funding authority of $508,147, $339,639, and $655,575 for FYs 2003 through 2005, respectively,
 for the unsupported obligations.

 Administrative Costs Claimed by the Idaho Disability
 Determination Services (ID-DDS) (A-09-06-16120, 5/30/2007)

 We recommended that SSA ensure the ID DDS establishes a fee schedule for medical costs. The
 fees may not exceed the highest rate paid by Federal or other State agencies for the same or similar
 types of service. The implemented value of this recommendation is $876,476.

 Administrative Costs Claimed by the Illinois Disability
 Determination Services (A-05-06-16118, 5/22/2007)

 We recommended that SSA reduce DDS funding authorizations when they are no longer needed
 to make disability determinations. Rescinding excess funding authorization decreases the risk of
 funds being spent on expenditures not related to the proper FY. The implemented value of this
 recommendation is $807,581.

 Administrative Costs Claimed by the Tennessee Disability
 Determination Services (TN-DDS) (A-04-06-16053, 3/30/2007)

 We recommended that SSA require that the TN-DDS review the unliquidated FYs 2003 and 2004
 expenditures, totaling $135,555 and make appropriate adjustments.

 Childhood Continuing Disability Reviews and Age 18
 Redeterminations (A-01-06-21093, 12/20/2006)

 We recommended that SSA conduct childhood CDRs at least every 3 years for children under age 18
 whose impairments are likely to improve in accordance with the Act’s provisions. We also recommended
 that SSA conduct age-18 redeterminations by the time recipients attain age 20. The implemented
 recommendation is valued at $105,552,612.

 Title II Beneficiaries in England (A-01-06-26131, 12/11/2006)

 We recommended that SSA terminate benefits for two Title II beneficiaries based upon our review.
 The implemented value of this recommendation is $17,628.

 Title II Disability Insurance Benefits with a Workers’ Compensation
 Offset (A-04-05-15133, 11/22/2006)

 We recommended that SSA determine whether assigning WC offset cases only to technicians
 specialized in this workload would be cost-effective and improve payment accuracy. The implemented
 value of this recommendation is $83,144,832.




April 1 – September 30, 2007                                                                    Appendices  • 49
                                                                                                              49
         Semiannual Report to Congress




         Follow up on the Social Security Administration’s Procedures to
         Identify Representative Payees Who Are Deceased (A-01-06-16054,
         10/27/2006)

         We recommended that SSA ensure the needs of the remaining beneficiaries and recipients in OIG’s population
         are being met and that all deceased payees are replaced with new payees. The implemented value of this
         recommendation is $25,504,667.

         Improperly Paid Lump-Sum Death Payments (A-08-05-25145, 8/18/2006)

         We recommended that SSA remedy weaknesses within Modernized Claims System (MCS), Manual
         Adjustment, Credit and Award Processing (MADCAP) System and the Title II Processing System that
         allow Lump-Sum Death Payments to be paid when recoverable overpayments exist. The implemented value
         of this recommendation is $570,597.

         Beneficiaries Paid Under More than One Social Security Number  
         (A-01-06-26022, 8/10/2006)

         We recommended that SSA continue to work with OI on cases identified during our audit and assess
         overpayments where appropriate. The implemented recommendation is valued at $849,983.

         Benefits Paid to Dually Entitled Title II Beneficiaries (A-01-06-26004,
         8/7/2006)

         We recommended that SSA review the remaining 1,360 cases to ensure that all overpayments are identified,
         recorded and pursued for recovery. The implemented value of this recommendation is $14,653,420.

         Match of Veterans Affairs’ Historical Death File against the Social
         Security Administration’s Benefit Rolls (A-01-05-35086, 6/14/2006)

         We recommended that SSA review the remaining 1,167 cases in our audit population in which it
         appears payments may have been issued after death. The implemented value of this recommendation is
         $1,940,796.

         Administrative Costs Claimed by the Texas Disability Determination
         Services (A-06-06-16008, 3/23/2006)

         We recommended that SSA deobligate $40,157 from the FY 2004 Form SSA-4513.

         The Social Security Administration’s Controls over the Suspension of
         Title XVI Overpayment Collection Efforts (A-04-04-24029, 4/12/2005)

         We recommended that SSA issue a reminder and, if necessary, further guidance to SSA debt collection staff
         requiring that they fully develop and document overpayment suspension decisions, as required by SSA policy.
         The implemented recommendation is valued at $75,760,500.

         Assessment of the Enumeration at Entry Process (A-08-04-14093,
         3/15/2005)

         We recommended that SSA continue to work with the State and DHS to resolve data compatibility issues,
         including name standardization. The implemented recommendation is valued at $3,285,960.



50 •  Appendices
50                                                                                April 1 – September 30, 2007
                                                                        Semiannual Report to Congress




Appendix D: Significant Management Decisions With Which
the Inspector General Disagrees
Administrative Finality in the Old-Age, Survivors and Disability
Insurance Program (OASDI) (A-01-07-27029, 9/24/2007)

Recommendation: We encouraged the Agency to consider making revisions to its rules and regulations
that will permit changes to the ongoing OASDI benefit payments whenever errors are discovered.
Agency Response: SSA disagreed. Any changes in the existing rules would need to be carefully weighed
to determine the potential impact of any changes on both the beneficiaries and the Agency. At this
time SSA does not agree that it would be in the Social Security program’s best interest to perform
ongoing OASDI benefit recalculations, as to do so would require additional administrative resources
and/or the deferral of other Agency work. Section 205(c) of the Social Security Act (and implementing
regulations at 20 CFR 404.820ff ) limits the circumstances in which earnings records from past years
may be revised downward. This, in turn, may limit the ability of SSA in many cases to make the sorts
of downward adjustments in benefit amounts that are intended in the recommendation. It may be that,
in the absence of a statutory change to section 205(c), the impact of the recommendation with respect
to SSA’s regulatory administrative finality policy may be limited.




April 1 – September 30, 2007                                                                   Appendices  • 51
                                                                                                             51
         Semiannual Report to Congress




             Appendix E: Collections From Investigations and Audits
             The Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report
             additional information concerning actual cumulative collections and offsets achieved as a
             result of OIG activities each semiannual period.

             Office of Investigations

                            Total Restitution Reported by DOJ as Collected for SSA

                                   Total Number
                                                                  Court Ordered
                                    of Individuals                                          Total Restitution
                     FY                                         Restitution for This
                                   Assigned Court                                           Collected by DOJ
                                                                      Period
                                 Ordered Restitution
                    2005                    661                             $22,292,757          $1,753,601

                    2006                    578                             $18,817,909          $1,447,402

                    20071                   655                             $26,435,626           $898,764

                TOTAL                      1,894                            $67,546,292          $4,099,767

                1
                   Reflects collection for October 1, 2006– June 30, 2007




                                   Recovery Actions Based on OI Investigations

                                         Total Number of Recovery
                          FY                                                     Amount for Recovery
                                             Actions Initiated

                        2005                            1,686                             $30,908,777

                        2006                            1,865                             $35,492,314

                        20071                           2,514                             $44,081,776

                       TOTAL                           6,065                           $110,482,867
                1
                   Reflects data for October 1, 2006– September 30 2007




52 •  Appendices
52                                                                                  April 1 – September 30, 2007
                                                                               Semiannual Report to Congress




Office of Audit
The following chart summarizes SSA’s responses to our recommendations for the recovery or
redirection of questioned and unsupported costs. This information is prepared in coordination
with SSA’s management officials and is current as of September 30, 2007.


                          SSA’s Responses to OIG’s Recommendations
                Recovery or Redirection of Questioned and Unsupported Costs
          Reports with    Questioned/                                               Amount
                                              Management        Amount Collected
   FY     Questioned      Unsupported                                              Written-Off/            Balance
                                              Concurrence       or to be Recovered
             Costs           Costs                                                 Adjustments

  2005         24          $374,930,433         $363,916,161        $173,530,234       $120,328,421      $75,538,490

  2006         24         $1,373,740,596      $1,245,415,125      $1,226,721,695      $129,567,145       $17,451,756

  2007         36         $1,238,280,696        $210,172,161       $208,745,1911      $360,720,476      $669,427,392


 TOTAL         84        $2,986,951,725     $1,819,503,447       $1,608,997,120      $610,616,042      $762,417,638

   1
    This amount includes $612,363 in collected funds that were contained in the report, Indirect Cost for the
   Connecticut Disability Determinations Service for the Period July 1, 2003 through June 30, 2005 (A-15-07-
   16034, 9/28/07). Corrective action was taken on initial audit, Indirect Cost Clasimed by the Connecticut
   Disability Determinations Service (A-15-03-23041, 9/07/04) and the indirect cost was returned.




April 1 – September 30, 2007                                                                             Appendices  • 53
                                                                                                                       53
         Semiannual Report to Congress




            Appendix F: Significant Monetary Recommendations From
            Prior FYs for Which Corrective Actions Have Not Been
            Completed
            Impact of Statutory Benefit Continuation on Supplemental Security
            Income Payments Made During the Appeals Process (A-07-05-15095,
            5/10/2006)

            Recommendation: Enhance the business process to allow more timely decisions on medical cessation
            appeals.
            Valued at: $158,778,983 in funds put to better use.
            Agency Response: SSA agreed with the recommendation.
            Corrective Action: Enhancing the business process may allow for improved stewardship and more
            timely decisions regarding Supplemental Security Income (SSI) cessation cases and benefit continuation
            during the appeal period. SSA intends to decrease processing time in all disability appeals through
            the implementation of eDib and the new disability regulations.
            Processing times reflected in the report indicate that SSA is following the regulations and ALJs are
            following HALLEX guidelines that include assignment of continuing benefit disability cessation cases
            as 7th of 11 categories of priority cases they may be processing. There are significant reasons for the
            categorization of these priorities and SSA cannot justify moving this category of cases ahead of the
            others. Although SSA recognizes its responsibility to stewardship, the Agency must at times balance
            that against service obligations. Therefore, at this time SSA is not in a position to support segregating
            cases that are receiving benefit continuation and processing those cases first.
            Recommendation: Remind SSA components of the proper procedures for terminating SSI benefits
            following medical cessation decisions.
            Valued at: $13,869,533 in funds put to better use.
            Agency Response: SSA agreed with the recommendation.
            Corrective Action: SSA will remind the appropriate components of the proper procedures for
            terminating SSI benefits following medical cessation decisions. Also, it should be noted that SSA
            implemented systems enhancements in January and April 2004 which automatically handle payment
            termination in Statutory Benefit Continuation cases with the former Office of Hearings and Appeals
            (OHA) or Disability Determination Service (DDS) involvement, respectively. When the termination
            decision is received from the DDS or ALJ, the SSI system automatically terminates the benefit
            continuation according to established guidelines. Manual intervention is not required. In addition,
            systems controls are in place to ensure that these cases can be tracked.




54 •  Appendices
54                                                                                   April 1 – September 30, 2007
                                                                         Semiannual Report to Congress




Appendix G: Significant Non-Monetary Recommendations
From Prior FYs for Which Corrective Actions Have Not
Been Completed
The Social Security Administration’s Program for Issuing
Replacement Social Security Cards to Prisoners (A-08-06-16025,
7/13/2006)

Recommendation: Perform a review at each prison with which it is considering executing a Memorandum
of Understanding (MOU) to ensure its procedures for establishing prisoner identity are sufficient
to ensure SSN integrity and compliance with the intent of the Intelligence Reform and Terrorism
Prevention Act of 2004.
Agency Response: SSA agreed with the recommendation. The Agency has formed a workgroup
to address this recommendation and other issues dealing with the enumeration of prisoners. The
workgroup will provide the appropriate support to implement this recommendation.
Corrective Action: In January 2007, SSA employees visited a Federal prison in Petersburg, Virginia
to observe the prisoner intake process and discuss the types of documents used to identify a Federal
prisoner. Based on this visit, the workgroup agreed on a prisoner enumeration process covering all
Federal facilities. The Agency has made significant progress in completing an MOU with the Bureau
of Prisons. The workgroup will soon reconvene to develop policy and procedures covering State and
local facilities.
Recommendation: Require that field offices perform annual onsite reviews of prison procedures for
submitting prisoner replacement SSN applications and required evidence and take corrective action
as needed.
Agency Response: SSA agreed with the recommendation.
Corrective Action: SSA agreed in principle that periodic onsite reviews of prisons would be a good
idea. The prisoner enumeration workgroup is investigating this issue to determine what is practicable
given the limited resources in the regional and field offices.




April 1 – September 30, 2007                                                                     Appendices  • 55
                                                                                                               55
          Semiannual Report to Congress




                Glossary of Acronyms
                Abbreviation       Definition
                AET                Annual Earnings Test
                CDI                Cooperative Disability Investigations
                CMP                Civil Monetary Penalty
                CY                 Calendar Year
                DCN                Double Check Negotiation
                DDS                Disability Determination Services
                DHS                Department of Homeland Security
                DOJ                Department of Justice
                DOL                Department of Labor
                ECIE               Executive Council on Integrity and Efficiency
                EDD                Employee Development Department
                EEO                Earnings Enforcement Operation
                EVS                Employee Verification System
                FBI                Federal Bureau of Investigation
                FECA               Federal Employees Compensation Act
                FEMA               Federal Emergency Management Agency
                FRA                Full Retirement Age
                FY                 Fiscal Year
                IO                 Immediate Office
                IRS                Internal Revenue Service
                IT                 Information Technology
                MBR                Master Beneficiary Record
                MEF                Master Earnings File
                MOU                Memorandum of Understanding
                OA                 Office of Audit
                OASDI              Old-Age, Survivors, and Disability Insurance
                OCCIG              Office of the Chief Counsel to the Inspector General
                ODISP              Office of Disability and Income Security Programs


56 • Glossary                                                              April 1 – September 30, 2007
                                                                  Semiannual Report to Congress




Abbreviation            Definition
OI                      Office of Investigations
OIG                     Office of the Inspector General

OMB                     Office of Management and Budget

OQAPR                   Office of Quality Assurance and Professional Responsibility

ORM                     Office of Resource Management

PCIE                    President’s Council on Integrity and Efficiency

PII                     Personally Identifiable Information

PTSD                    Post-Traumatic Stress Disorder

QDD                     Quick Disability Determinations

SSA                     Social Security Administration

SSI                     Supplemental Security Income

SSN                     Social Security Number

SSNVS                   Social Security Number Verification Service

the Act                 Social Security Act

USAO                    United States Attorney’s Office

VA                      Department of Veterans Affairs




April 1 – September 30, 2007                                                            Glossary • 57
     Semiannual Report to Congress




58                                   April 1 – September 30, 2007
                                                                       How to Report Fraud
                                                         The SSA OIG Fraud Hotline offers a means for you to provide
                                                         information on suspected fraud, waste, and abuse. If you know
                                                         of current or potentially illegal or improper activities involving
                                                          SSA programs or personnel, we encourage you to contact the
                                                                            SSA OIG Fraud Hotline.

    Social Security Administration
                                                                    Call	 1-800-269-0271
    Office Of The Inspector General                               Write	   Social Security Administration
                                                         	                 Office of the Inspector General
                                                         	                 Attention: SSA Fraud Hotline
                    Mission Statement                    	                 P. O. Box 17768
By conducting independent and objective audits,          	                 Baltimore, MD 21235
evaluations and investigations, we inspire public
confidence in the integrity and security of SSA’s                   Fax	 410-597-0118
programs and operations and protect them against
fraud, waste and abuse. We provide timely, useful and           Internet www.socialsecurity.gov/oig
reliable information and advice to Administration
officials, Congress and the public.
                                                         To obtain additional copies of this report please visit our web-
                                                                       site at www.socialsecurity.gov/oig
                    Vision and Values
We strive for continual improvement in SSA’s programs,
operations and management by proactively seeking                              SSA Pub. No. 85-007
new ways to prevent and deter fraud, waste and abuse.
We commit to integrity and excellence by supporting
an environment that provides a valuable public service
while encouraging employee development and retention
and fostering diversity and innovation.
OIG Semiannual Report to Congress
April 1, 2007 – September 30, 2007




                                        Social Security Administration
                                        Office of the Inspector General
    Report Fraud, Waste, and Abuse
    1-800-269-0271
                                     Semiannual Report to Congress
                                         April 1, 2007 – September 30, 2007
